<html>
<title> - RESPONDING TO THE DRUG CRISIS IN SOUTHERN CALIFORNIA</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





          RESPONDING TO THE DRUG CRISIS IN SOUTHERN CALIFORNIA

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 7, 2000

                               __________

                           Serial No. 106-157

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
66-899                     WASHINGTON : 2000

                                 ______


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California                 JANICE D. SCHAKOWSKY, Illinois
DAVID VITTER, Louisiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
           Sharon Pinkerton, Staff Director and Chief Counsel
                Mason Alinger, Professional Staff Member
                          Lisa Wandler, Clerk
                    Cherri Branson, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 7, 2000....................................     1
Statement of:
    Jacob, Dianne, San Diego County supervisor; Greg Cox, San 
      Diego County supervisor; Sgt. Scott Lee, San Diego Police 
      Department; Jack Campana, director, Comprehensive Health 
      and Wellness, San Diego Unified School District; Tom Hall, 
      chief of police, San Diego Unified School District; and 
      Judge Bonnie Dumanis, Superior Court Judge, San Diego, CA..    10
    Veal, William, Chief Patrol Agent, San Diego Sector, 
      Immigration and Naturalization Service; Edward Logan, 
      Special Agent in Charge, U.S. Customs Service, San Diego, 
      CA; UnderSheriff Jack Drown, executive committee chair, 
      California Border Alliance Group, Southwest Border HIDTA; 
      and Captain Robert Allen, Commander, Activities San Diego, 
      U.S. Coast Guard, San Diego, CA............................    56
Letters, statements, et cetera, submitted for the record by:
    Allen, Captain Robert, Commander, Activities San Diego, U.S. 
      Coast Guard, San Diego, CA, prepared statement of..........   139
    Campana, Jack, director, Comprehensive Health and Wellness, 
      San Diego Unified School District, prepared statement of...    34
    Cox, Greg, San Diego County supervisor, prepared statement of    22
    Drown, UnderSheriff Jack, executive committee chair, 
      California Border Alliance Group, Southwest Border HIDTA, 
      prepared statement of......................................    96
    Dumanis, Judge Bonnie, Superior Court Judge, San Diego, CA, 
      prepared statement of......................................    42
    Hall, Tom, chief of police, San Diego Unified School 
      District, prepared statement of............................    37
    Jacob, Dianne, San Diego County supervisor, prepared 
      statement of...............................................    14
    Lee, Sgt. Scott, San Diego Police Department, prepared 
      statement of...............................................    30
    Logan, Edward, Special Agent in Charge, U.S. Customs Service, 
      San Diego, CA, prepared statement of.......................    84
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................     5
    Veal, William, Chief Patrol Agent, San Diego Sector, 
      Immigration and Naturalization Service:
        Information concerning positions for Border Patrol.......    60
        Prepared statement of....................................    69

 
          RESPONDING TO THE DRUG CRISIS IN SOUTHERN CALIFORNIA

                              ----------                              


                         TUESDAY, MARCH 7, 2000

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                     San Diego, CA.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
the U.S. Coast Guard Station, 2170 North Harbor Drive, San 
Diego, CA, Hon. John L. Mica (chairman of the subcommittee) 
presiding.
    Present: Representative Mica and Souder.
    Also present: Representative Bilbray.
    Staff present: Sharon Pinkerton, staff director and chief 
counsel; and Mason Alinger, professional staff member.
    Mr. Mica. I would like to call the meeting of the 
Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources to order. I am John Mica, chairman of the 
subcommittee and am pleased to be here in San Diego today, 
southern California, at the specific request of Mr. Bilbray and 
pleased to conduct this hearing which is entitled, ``Responding 
to the Drug Crisis in Southern California''. Also, a member of 
our subcommittee participating today is the gentleman from 
Indiana, Mr. Souder, if he could please join us. We may have 
others joining us today, but we have two full panels, and we 
want to proceed accordingly.
    I will recognize myself for an opening statement. I will 
recognize Mr. Souder and then Mr. Bilbray for opening 
statements, and then we will proceed to our first panel.
    Our subcommittee is conducting this oversight field hearing 
as part of our need to understand, fully, the Nation's drug 
crisis, and how it impacts different parts of our Nation. 
Specifically, we are looking at what effective drug control 
efforts are underway in this area of our country and how we can 
support those efforts.
    Today, we will learn about Federal, State and local efforts 
here to respond to the drug crisis in southern California, 
along with the California's border with Mexico. This area 
happens to be one of our most vulnerable and challenging 
regions in America for our law enforcement officials in that 
mission.
    We are privileged to have with us today congressional 
leaders who strongly support efforts to stop the flow of 
illegal narcotics into the United States and also to protect 
our communities from the ravages they cause. I know that Mr. 
Bilbray, who invited us to his congressional district in this 
area here in beautiful San Diego and southern California, has 
been particularly active in helping this region in dealing with 
the issues we face. Primarily, he has been very active in 
looking at solutions for effective drug prevention and 
treatment and also helped me on a number of occasions in my 
responsibilities on our national and international drug control 
policy which we are trying to formulate through our 
subcommittee.
    I recognize that he is a resident expert on the needs and 
concerns of citizens throughout this area and an important 
force in helping us to fashion our Federal, State and local 
solutions.
    I want to thank all the Members who have encouraged us to 
conduct this hearing here today, particularly Mr. Bilbray and 
thank them for their dedication to this issue of critical 
importance to our Nation.
    We are honored to have testifying before us today a number 
of Federal, regional and local officials who are engaged in 
responding to the drug crisis and the terrible consequences we 
see daily from that epidemic we are facing. These officials 
serve on the very front line, investigating, apprehending, 
prosecuting and sentencing drug producers and traffickers and 
are in need of our national Federal support and assistance.
    This subcommittee is particularly interested in how 
communities and regions are dealing with critical 
responsibilities of implementing successfully our national, and 
I say national in the terms of not just Federal, drug control 
strategy. After all, most law enforcement and drug control 
activities are really primarily State and local 
responsibilities. However, as a border region, this community 
and this area has special needs and concerns such as transit, 
drug transit issues and also trade issues, a big corridor for 
both.
    We also are very concerned with drug related developments 
across the border. I think all of us were appalled on both 
sides of the border of the recent murder of the Tijuana chief 
of police which focused national and international attention on 
the corruption and violence that has faced us on both sides of 
the border. Our sympathies go out to the family of the police 
chief and those in the Baja Peninsular who have seen the 
violence repeated time and time again on that side of the 
border, and the people of this community who have also seen a 
loss of life. The dangers in combating illegal narcotics are 
very real. In Congress, we want to ensure that the Federal 
Government is doing everything possible to assist this area and 
our colleague in both reducing the supply of drugs in this 
community as well as the demand for drugs here and across our 
Nation.
    At a recent hearing of this subcommittee, we learned 
estimates that Americans in need of drug treatment range from 
4.4 to 8.9 million people, yet less than 2 million people 
reportedly receive treatment. The gap must somehow be 
addressed. Our subcommittee will continue to conduct oversight 
in this and other areas and seek to improve our Federal 
programs that support those State and local drug treatment and 
prevention efforts.
    Today, we are focusing on regional challenges and threats 
facing southern California. Illegal drug production, use and 
trafficking pose special dangers and challenges to the 
communities in southern California, also to our Coast Guard, to 
our Customs officials, to Mexican officials who work with them 
and to our local law enforcement and elected officials.
    This region of California continues to a primary transit 
point for illegal drugs entering this country and transiting 
across and through this State and region. In recent years, this 
area has experienced more demands on its resources than ever 
before. This demand is expected from what we are told to even 
further increase, not diminish, in the future.
    In response to this terrible drug crisis, this area of 
California has been designated by the White House Office of 
National Drug Control Policy [ONDCP], as what is termed a 
``High Intensity Drug Trafficking Area.'' That is a general law 
designation by which we can impose a HIDTA, Federal designation 
as a high intensity drug trafficking area. HIDTAs are defined 
as regions in the United States with serious drug trafficking 
problems that have a harmful impact on other areas of the 
country. The mission of the HIDTAs is ``to enhance'' and this 
is out of the laws, ``to enhance and coordinate America's drug-
control efforts among, Federal, State and local officials in 
order to eliminate or reduce drug trafficking (including the 
production, manufacture, transportation, distribution and 
chronic use of illegal drugs and money laundering) and its 
harmful consequences in critical regions of the United 
States.'' That is the mission of the HIDTAs.
    Our subcommittee is responsible for authorizing and 
overseeing the Office of National Drug Control Policy and also 
overseeing the HIDTA programs. Today, we will learn more about 
the effectiveness of this particular HIDTA in this area and its 
efforts to combat illegal narcotics.
    Designated as one of the original HIDTAs in the 1990's, the 
Southwest Border HIDTA region is a critical of defense in 
efforts to reduce drug availability in the United States. Our 
National Office of Drug Control Policy estimates that about 60 
percent of the cocaine entering the United States passes 
through Mexico. Mexico is the No. 1 foreign producer and 
supplier of marijuana and also methamphetamines to the United 
States. We just conducted a hearing in northern, I guess this 
would be referred to as northern or north central and northern, 
California on the question of methamphetamine. Mr. Souder was 
there. You were not there, Mr. Bilbray. Last week he heard of a 
murder of a 6 year-old by a 6 year-old. Look at the root cause 
of that murder. The child's father, I believe, was in jail, 
came basically from a crack house. What we learned about 
methamphetamine and its impact on the communities there is 
absolutely astounding. People abandoning their children. What 
was it 35 children of which only 5 were reclaimed by the 
families. They showed a tape and they showed the face of one 
little girl who had been abused and tortured by her family and 
then scalded to death was her final demise. 600 children, I 
think they said, in one county coming from meth families. We 
have an epidemic of methamphetamine and some of that coming 
again from across the border. In fact, they displayed meth that 
came from Mexico and cocaine at the hearing and it just appalls 
me to see what is going on in this area. Unfortunately, Mexico 
is the No. 1 foreign producer, as I said, and supplier of 
methamphetamine to the United States and Mexican heroine 
dominates the market in the western and southwestern United 
States. Through DEA signature program, they have also indicated 
in the last year about a 20 percent increase in production of 
black tar heroin from Mexico, also something that should raise 
concerns.
    I do applaud the continuing dedication and professionalism 
of our witnesses today and their willingness to share with us 
their ideas and needs again of this particular area and the 
impact that illegal narcotics have had on this area.
    I can assure you that this subcommittee and your 
Representatives in Congress here today will do everything 
possible we can to assist you in protecting your loved ones and 
ridding your communities and our communities of deadly drugs.
    I called back to central Florida, Orlando, this morning, 
and they read me the headlines in central Florida. They said we 
have had epidemic heroin overdose deaths. The headlines last 
year where they exceeded homicides in central Florida, and the 
news today is that the heroin deaths are up almost 20 percent 
over last year. Overdoses are up dramatically, and there would 
probably have been another 30 deaths on top of the number we 
have had if it was not for rapid medical treatment that is now 
emergency treatment that is taking place.
    We all recognize that the drug crisis demands full 
utilization of all available resources and close cooperation in 
a comprehensive, regional and national approach. After all, 
that is what the HIDTAs are designed to do and it is our job in 
Congress to monitor and ensure their success. If obstacles are 
identified, then we must move decisively to overcome them. San 
Diego, southern California, and this Nation cannot afford to 
wait. The drug crisis demands promising approaches and decisive 
action and the time to act is now.
    I want to thank all of our witnesses for appearing before 
us today. I appreciate the invitation from Mr. Bilbray to 
conduct this hearing here in his home area. I would like to 
yield now to the gentleman from Indiana, Mr. Souder, for an 
opening statement.
    [The prepared statement of Hon. John L. Mica follows:]

    [GRAPHIC] [TIFF OMITTED] T6899.001
    
    [GRAPHIC] [TIFF OMITTED] T6899.002
    
    Mr. Souder. I thank the chairman. It is a great privilege 
to be here. When we were in the minority, before I was elected 
to Congress, but was a staffer, there was a concern that there 
had been a seeming retreat from our efforts to battle illegal 
narcotics, and it is by this oversight committee not holding 
even one hearing to oversee the drug policy. And since the 
Republicans have taken over Congress we have been pretty much 
in every part of the Nation, on each of the borders and have 
been very aggressively trying to see what can be done in all 
the different areas ranging from interdiction to treatment.
    I went with the chairman down to South America last year. 
We met with all the source countries and leaderships in those 
countries. We went with Congressman Ballenger just a few weeks 
ago, where we met not only with President Pastrana and 
President Chavez of Venezuela and Colombia, but with the 
leaders of Mexico, including the Attorney General, who has a 
tremendous uphill battle. I am convinced that the higher levels 
of the government in Mexico are extremely dedicated to trying 
to do something to tackle the problem. However, the lack of a 
legal system and a corrupted system which to deal with the 
tremendous amount of narcotics is overwhelming our ability to 
work together, and we are going to continue to have to address 
that question, which means it puts tremendous pressure on our 
borders. And part of the reason we are here in San Diego today 
is because of that.
    In addition, we are about to finish our markups and have 
our votes on the Safe and Drug Free Schools Act, in addition to 
looking at some additional treatment legislation in the areas 
of prevention and treatment. So I am looking forward to the 
testimony on that.
    And my friend, Congressman Bilbray, was elected the same 
year I was in 1994, part of the class was that came in with 
lots of diversity. One of the things that Congressman Bilbray 
has done constantly with me and other Members is to collar us 
and to make sure we do not forget about the problems of 
California, in particular, the relationships of the border. He 
will occasionally on almost any given day take us one by one 
and say you have to do more for this problem we have here in 
California. I mean that seriously. We have had many 
discussions, usually at a fairly calm level, sometimes going up 
one notch higher as he feels we are not paying enough attention 
to the problems here in San Diego, so it is one of the reasons 
that I am here today because I have been listening to 
Congressman Bilbray as well as looking at the data. I have been 
here before, but I have not been here for a hearing on the 
border, so I am looking forward to your testimony and 
appreciate the invitation.
    Mr. Mica. Thank you, gentleman. I am pleased now to yield 
to our host today, the gentleman from California, Mr. Bilbray, 
you are recognized.
    Mr. Bilbray. Thank you, Mr. Chairman. Mr. Chairman, I would 
like to welcome you and Mr. Souder. I hope you appreciate, Mr. 
Souder, that we tried to accommodate you and make you feel at 
home by having the coldest wettest day of the year. We really 
want to make you feel comfortable.
    Let me just say I appreciate the tactful ways my colleagues 
point out the way that I have been rather persistent in trying 
to point out that in so many ways San Diego is a world away 
from Washington, DC, and for a lot of us in San Diego, we 
prefer it that way. But the sad fact about it is that 
Washington has a major responsibility to be sensitized to the 
unique perspective we have here, not just as a border community 
or the major border community of the world. Tijuana, point of 
entry, has more crossings than any other port of entry anywhere 
in the world, but also the fact that San Diego County, as a 
whole, has had some very unique challenges and unique answers 
to those challenges that I think that the rest of the country 
can learn by.
    Now, the chairman has been very clear in pointing out that 
more has to be done in drug interdiction in the entire drug 
cultural development, not just in this country, but 
internationally, and I really appreciate you coming here 
because you are able to see first hand the front line battle 
against the drug smuggling trade, but also the front line 
battle that what is being done in our counties, in our cities, 
in our schools, in our courtrooms at fighting this hideous 
epidemic at every line, every point we can.
    I think it is going to point out there are still things we 
need to do, a whole lot more we need to do. The United States 
Government has gotten very comfortable at reviewing Mexico and 
certifying Mexico based on how they made the efforts that we 
expect of them. I appreciate the fact that Chairman Mica and 
his subcommittee has looked at also the issue of who do we 
certify in the U.S. Federal Government. Is it doing what it has 
to do? It is doing everything it can do and as we judge others, 
we should judge ourselves. I think that one of the things that 
hits home to me, and I apologize if I am a little persistent on 
this issue, is that the violence of the drug activities along 
the border is not something far away from me. The brutal 
assassination that happened last week or 2 weeks ago happened a 
few kilometers from where my family lives. We have had 
assassinations on the silver strand that are a few kilometers 
or miles north of where I call home. This is something that is 
happening in our community, not somewhere else and it is hard 
to draw those lines.
    I would ask us to take a look at the deficiencies, things 
like half as many border patrol agents being actually hired 
than what was authorized. The lack of resources that are given 
to Customs and drug interdiction while we give resources to 
other countries all over the world to defend and secure their 
borders, but sort of give our own borders and our own citizens 
a second rate standing in the defense of our frontiers.
    I think though that there are challenges we need to do 
within our own communities. San Diego County will point out 
that one of the things that has been detected here in San Diego 
County is the involvement of public funds in supporting the 
drug problems. San Diego County has been very innovative and 
very challenging and brave enough to raise these issues and say 
how much of public funds are going in to financing the drug 
problems? What can be done in the educational institutions? And 
we do have a major challenge to look at what we can do along 
the border, what we can do in our schools. But I also would 
challenge you to say we have to set an example as a Federal 
Government and this is not popular to say, but at a time where 
we have people that are incarcerated in this country, that are 
under lock and the key and the government cannot keep them from 
having access to drugs, we have a major challenge to look at 
ourselves and say what are we not doing right? How can we think 
that we can save our children from access to drugs? How do we 
think we can keep drugs out of the hands of teenagers and 
school age kids when we cannot even keep it out of the hands of 
convicted criminals who are in prison? This really is a major 
challenge for us. So I appreciate the fact that you are able to 
see what we have done, that barriers that used to exist are 
falling down, and especially along the border. The fact is is 
that the county was very aggressive, the Sheriff's Department 
and the city was very aggressive at cracking down on the meth 
labs a few years ago and we have seen them be basically put on 
a retreat and they restructured somewhere else and then we have 
to fight again. We have looked at the fact that we are not just 
talking coordination between Customs and Coast Guard and 
Immigration. We are talking about coordination between Customs, 
Coast Guard, Immigration, the Navy, the Army, the National 
Guard and the Air Force and this is what it is going to take to 
defend our children.
    So I am glad you are here. I am glad that we are able to 
spend this time talking about these, and I think San Diego has 
a great story to tell America. I think there is so much you can 
learn from our experiences here. That is why I have been a bit 
of a pain, saying come and listen to the story of San Diego 
County, look at what we have been able to do with all of our 
problems and all of our challenges. If America will give us 
half a chance to teach you how to address this issue, it can 
really help us find the answer, not just for San Diego County 
but for America and the world. These problems do not only 
affect our children as what has happened in Mexico the last few 
years, it affects people outside our borders.
    Thank you, Mr. Chairman, and I appreciate this time and 
this effort.
    Mr. Mica. Thank the gentleman and again thank you for the 
invitation. Let me explain how we will proceed. First of all, 
those of you that are part of our first panel all appear to be 
local officials, and we are pleased to have you. This is an 
investigations and oversight subcommittee of Congress. In that 
regard, we do swear in our witnesses, and you will be under 
oath when you testify.
    We will also run this little clock here. We do this in 
Washington or in field hearings. We will allow you 5 minutes 
for oral presentation. When you see that blinking, you try to 
wind up, if you can. By unanimous consent or just by request, 
and I will seek unanimous consent, we will submit for the 
record any lengthy documentation or if you have a lengthier 
statement that you would like to be made part of the official 
record of this congressional proceeding.
    The first responsibility is to swear you in. Will you 
please and raise your right hands.
    [Witnesses sworn.]
    Mr. Mica. Witnesses answered in the affirmative and thank 
you again. We are going to start with this first panel. Let me 
introduce all the panelists, if I may. We have Ms. Dianne Jacob 
who is a San Diego County supervisor. We have Mr. Greg Cox, San 
Diego County supervisor also. Sergeant Scott Lee, San Diego 
Police Department. Mr. Jack Campana, and he is the director of 
comprehensive health and physical education for San Diego 
Unified School District. We have Mr. Tom Hall, he is Chief 
Hall, chief of police of San Diego Unified School District. And 
we have Judge Bonnie Dumanis, Superior Court Judge in San 
Diego, CA. Welcome each of you and we are pleased to have your 
testimony at this time.
    The other thing, too, is we will withhold questions, and I 
think one of you might have to leave early. If you have to 
leave that will be fine. We may submit questions to you.
    Mr. Souder has a motion that we leave the record open for 2 
weeks.
    Mr. Souder. So moved.
    Mr. Mica. All right. We will leave the record of this 
hearing open for 2 weeks without objection, so ordered.
    Mr. Souder. And that includes any additional testimony that 
they may want to submit or background information.
    Mr. Mica. That includes any background information. If 
there are those that in the audience or in the community that 
want to submit testimony or other additions to the record, that 
also will be welcome. Without objection, so ordered.
    With that I will then recognize and welcome Ms. Dianne 
Jacob, San Diego County supervisor, our first witness. Welcome 
and you are recognized.

 STATEMENTS OF DIANNE JACOB, SAN DIEGO COUNTY SUPERVISOR; GREG 
  COX, SAN DIEGO COUNTY SUPERVISOR; SGT. SCOTT LEE, SAN DIEGO 
POLICE DEPARTMENT; JACK CAMPANA, DIRECTOR, COMPREHENSIVE HEALTH 
  AND WELLNESS, SAN DIEGO UNIFIED SCHOOL DISTRICT; TOM HALL, 
 CHIEF OF POLICE, SAN DIEGO UNIFIED SCHOOL DISTRICT; AND JUDGE 
      BONNIE DUMANIS, SUPERIOR COURT JUDGE, SAN DIEGO, CA

    Ms. Jacob. Thank you, Mr. Chairman and members of the 
committee. I appreciate the opportunity to provide testimony to 
you today. I am here as the chairwoman of the Board of 
Supervisors, but also as the second district supervisor that 
represents the eastern portion of San Diego County and about 50 
miles of the United States-Mexico border. It was San Diego 
County about 3 years ago that was recognized, unfortunately, 
and had the dubious distinction of being named the meth capital 
in the United States and East County, my district, was the hot 
spot and it was for that reason about 3 years ago I initiated 
the Methamphetamine Strike Force and that is what I am going to 
talk about a bit today.
    Never before has one single drug threatened the health of a 
community like methamphetamine to the county of San Diego. Out 
of this specific mass destruction and continuing threat has 
come a unique alliance of criminal justice officials, 
policymakers, drug treatment practitioners and drug prevention 
specialists and we call this the Meth Strike Force, but before 
I discuss the on-going goals and accomplishments of the Strike 
Force, I must tell you the devastating tale of meth use in our 
county. I want you to understand the magnitude of the meth-
related problems in our county because I think you will find 
the efforts of the Strike Force are nothing short of 
impressive.
    The year was 1995. An unemployed plumber named Shawn Nelson 
sneaked into a National Guard Armory in San Diego's Keany Mesa 
neighborhood and commandeered a 57-ton M-60 tank. He maneuvered 
the deadly vehicle down residential streets crunching into cars 
and snapping steel lampposts as if they were twigs. He 
terrorized the neighborhood and frightened those of us who 
watched in disbelief.
    Not long after that incident, a young man in San Diego's 
East County climbed on board a county transit bus. He yanked 
the driver away from the steering wheel, hijacked that bus and 
embarked on a nearly 3 hour road trip down four separate San 
Diego freeways. It took the cooperation of three separate city 
police departments, the San Diego County Sheriff's Department, 
the California Highway Patrol and a small pack of police 
canines to halt the vehicle and get the man into custody.
    The common denominator in each of these gruesome acts is 
methamphetamine. In each case, the guilty party was under the 
influence of this intense stimulant.
    Unlike other drugs, meth is ``homegrown'' as drug agents 
say. Before my colleagues on the Board of Supervisors passed 
crucial legislation, most of the chemicals used in its recipe 
could be obtained with little difficulty. This availability 
made it cheaper than crack cocaine. Frighteningly, its high 
lasts 4 times longer.
    By 1997, use of the drug had proliferated greatly in San 
Diego County. Some 43 percent of the people arrested for crimes 
in our county were under the influence of meth. Our county 
emergency rooms admitted nearly 2,000 patients for reasons 
related to methamphetamine that same year. And some 3,500 
people had visited drug treatment providers seeking help to 
kick their meth-specific addiction. Every week of 1997 two 
people in our county died due to the methamphetamine overdose.
    We knew it would take a collaborative effort as fierce as 
the drug itself to stop its spread and that is why we 
envisioned an all-inclusive effort in the fight. We began to 
enlist the input of every agency who had any vested interest in 
stamping out methamphetamine.
    We knew we needed input from law enforcement because no one 
understands the ravages of meth better than the officers, the 
deputies, the agents who deal with methamphetamine on a daily 
basis.
    But we also knew that we could not, as one agent described, 
``arrest the drug out of the county.'' Locking up every last 
user, cooker and dealer was a noble endeavor, but even law 
enforcement officials said it would not alone deter future 
generations of young people who would be peer pressured into 
trying the drug. It did not address the high re-arrest rates of 
meth users after they served time in our county jails. It did 
not arrest the explosive danger of volatile meth labs or the 
environmental hazards of toxic chemicals which are frequently 
dumped at the lab sites.
    Thus was born our four pronged approach toward meth 
abatement. We wanted the prevention and the education community 
on board to keep people from trying meth. We needed the 
intervention community on board to get the drug off the streets 
by prosecuting those who engaged in its manufacture and 
distribution. We needed the interdiction community to help 
create systemic legislative goals related to methamphetamine 
and we needed the treatment community on board to successfully 
rehabilitate users thereby ending the generational cycle of 
meth use.
    Now imagine, one table with representatives from each of 
those four sectors: prevention, intervention, interdiction and 
treatment. In all, some 70 different agencies attend the 
regular sessions and subcommittees of the Meth Strike Force 
with law enforcement, health officials, educators at both the 
Federal, State and local level.
    Strike Force officials do more than just strategize ways to 
combat meth. They fuse resources. They identify successful 
programs already working to stop meth. They implement those 
programs in critical areas and lobby for increased funding. 
They seek to raise public awareness and streamline public 
access to solutions. This is truly a ground breaking regional 
approach to decrease supply and demand for meth.
    I am here to tell you the accomplishments and 
recommendations of the Strike Force are very inspiring.
    In the last 3 years, the Meth Strike Force for example has 
put the power of law enforcement in the hands of the people by 
empowering the community with a 24-hour anonymous hotline to 
report meth-related crime. Calls to our hotline have so far 
resulted in more than 100 arrests of meth users, cookers and 
dealers.
    The Strike Force lobbied for strict--may I finish?
    Mr. Mica. Go ahead.
    Ms. Jacob. The Strike Force lobbied for strict drug 
treatment programs to reduce recidivism rates within our 
community's criminal justice system. The Strike Force 
identified the drug court program as a base model which would 
best serve the nonviolent criminal drug offender population in 
our county.
    Currently some 450 offenders take part in the program which 
has early recidivism rates of less than 10 percent which is 
phenomenal. That is the drug court. That is significantly less 
than the traditional court system. 45,000 offenders are 
currently eligible for the program should expansion occur and 
we are fighting to expand those drug courts and need resources 
to do that.
    The Strike Force brought to the community forefront the 
issue of children living in potentially explosive meth labs. 
The Strike Force identified the San Diego County District 
Attorney's Drug Endangered Children Program as a crucial 
solution to this issue. This program is an outstanding example 
of cross agency cooperation between law enforcement and Child 
Protective Services.
    The 2-year old program removes kids from contaminated sites 
and requires that parents get clean and sober before the family 
can be reunited. A physician is medically tracking each child 
so the San Diego community will learn more about the long-term 
effects of meth on children. More than 170 children have been 
removed from meth contaminated environments and continue to 
receive DEC services. These are children who stand a high 
statistical risk of becoming meth cookers themselves.
    In addition, the Strike Force helped draft local and State 
legislation limiting sales of products which contain 
ingredients used to cook meth. In 1998, my colleagues and I 
adopted an ordinance limiting sales ephedrine-based cold 
medication to three packages per transaction. This poses no 
threat to people using the medicine legitimately. Across 
California, 38 other jurisdictions adopted similar ordinances. 
Just months ago, the Governor of California signed a statewide 
bill which mirrors San Diego County restrictions.
    The Strike Force also embarked on an intensive local media 
campaign to raise public awareness about the dangers of meth. 
We joined forces with the Partnership for a Drug-free America 
and the State Attorney General's office. We continue to 
distribute meth-specific public service announcements to local 
print and broadcast media. Our Strike Force media team 
frequently informs local news outlets about local drug trends 
suggesting ways in which the community can best respond.
    The Strike Force addressed a severe meth problem within the 
North County community of Vista by setting up an experimental 
pilot project designed to address the specific needs of one 
community. Already, the Vista Partners Project has brokered 
increased cooperation between law enforcement and educational 
officials by bringing meth awareness to every employee on the 
District's campuses. The group developed a series of teacher 
trainings by State Bureau of Narcotic agents who have coached 
school employees to recognize the warning signs of drug use on 
campus. The trainings have since been requested by a number of 
school districts countywide.
    Since the inception of the Strike Force in 1996 there has 
been a 30 percent drop in the number of meth-related deaths in 
our county. Methamphetamine-related drug arrests are down 
nearly 14 percent. Availability is down some 14 percent and 
local meth lab cleanups and seizures have been cut in half.
    It is a good beginning and encouraging news to those who 
have worked tirelessly on meth abatement issues. But the 
commendations cannot last long because there are media 
education campaigns to sustain, decoy operations to plan, court 
reform strategies to discuss and bi-national relationships to 
develop with our Mexican officials so that we can respond to 
the meth trends along the border. There are many, many more 
ideas on the developmental plate of the Meth Strike Force.
    These efforts would be greatly enhanced with funding 
directed toward community collaborative abatement efforts so 
that law enforcement officers can continue to share their 
expertise with school teachers, so that drug treatment 
counselors can continue to talk with U.S. Customs officials 
about the trends in distribution; so that our dialog remains 
healthy in our efforts manageable.
    We needed an entity more powerful than meth itself to force 
it out of our community and we believe that we have found it in 
the many voices of the Meth Strike Force and thank you for 
allowing me a little more time. You can tell me I am very 
excited about this effort and it is working. We need your help.
    Mr. Mica. We are very glad to hear your testimony and we 
did allow you to extend your time and the others are now to a 
minute apiece.
    Ms. Jacob. Sorry.
    Mr. Mica. You did have a very thorough presentation. We 
appreciate that. I recognize now Mr. Greg Cox and also a San 
Diego County supervisor.
    [The prepared statement of Ms. Jacob follows:]

    [GRAPHIC] [TIFF OMITTED] T6899.003
    
    [GRAPHIC] [TIFF OMITTED] T6899.004
    
    [GRAPHIC] [TIFF OMITTED] T6899.005
    
    [GRAPHIC] [TIFF OMITTED] T6899.006
    
    Mr. Cox. Thank you, Chairman Mica, Congressman Souder, 
Congressman Bilbray. We are very pleased to have you here in 
San Diego. I just got back last night from spending 6 days back 
in Washington, DC, lobbying my Congressman and some other 
Congressman from San Diego on a TEA-21 project, S.R. 905. I 
have to say I do not think I would ever contemplate that I 
would say this, but actually the weather in Washington, DC, was 
more beautiful, at least the last couple days, than it has been 
here in San Diego as I understand.
    Mr. Bilbray. We need the rain. We need the rain.
    Mr. Cox. I am very pleased to be here. I have the 
distinction and the pleasure of having followed Congressman 
Bilbray when he was elected to Congress. I was appointed to his 
seat in the 1st District for the San Diego County Board of 
Supervisors.
    Mr. Bilbray. Tonight he gets unanimously elected again.
    Mr. Cox. And I have the balance of the United States-Mexico 
border where Supervisor Jacob's District stops. My district 
picks up and goes from the Pacific Ocean, 14 miles to the east. 
We have, obviously, some very significant concerns about 
illegal drug use, illicit drug use along what is certainly as 
Congressman Bilbray pointed out is the most crossed border 
crossing in the world, over 70 million crossings per year. 
Included in this testimony that I am going to give you today is 
going to be some very specific solutions that we have 
identified as significantly addressing these concerns dealing 
with border-related drug use and drug use within the county of 
San Diego.
    San Diego County encompasses 4,261 square miles and is 
located obviously in the extreme southwest portion of 
California, bordered on the west by the Pacific Ocean, on the 
south by Mexico, on the east by the desert and to the north by 
a mountain range and a major military base. Most of the 
county's 2.7 million inhabitants reside in the coastal strip 
with an estimated 26 percent of this population under the age 
of 18 and another 23 percent of this population over 59 years. 
According to recent statistics, the county's population is 
predominantly white, 63 percent, with Hispanics comprising 23 
percent, African-Americans 6 percent, and Asian and other 
minority groups at 9 percent.
    A variety of opportunities and challenges exist with the 
diversity of the region and the proximity to the international 
border. The economic and social impact of drug use in this 
region is significant across every costly local government 
system and throughout the 18 municipal jurisdictions and 
unincorporated areas of San Diego County. An analysis performed 
in 1997 estimated that the total economic cost of alcohol and 
drug abuse in San Diego County reached $1.8 billion in 1995. We 
have included in the packet of information we have given to you 
an executive summary of that study that establishes what all 
those costs were. The most significant cost component was the 
direct expenditure on medical care to treat substance abuse-
related health conditions. These expenses accounted for 
approximately one third of the total economic cost of abuse.
    Related costs associated with alcohol and drug-involved 
crime including criminal justice expenditures, property 
destruction, criminal victimization and incarceration account 
for more than 30 percent of the total costs. Prevention and 
treatment expenditures were less than 2 percent of the total 
economic cost of alcohol and illicit drug use. To emphasize 
what Chairwoman Jacob has mentioned, we need additional 
resources on the demand-reduction component of our efforts to 
combat drug abuse. Drug abuse drive the budget across a variety 
of departments at the county. It draws precious local resources 
that could otherwise enhance the quality of life for residents 
in the areas of education, parks, libraries and transportation.
    Nationwide, there are over 1 million people arrested each 
year on drug-related charges. In San Diego County, over 70 
percent of men and women arrested last year tested positive for 
drugs. Substance abuse was also present in almost 80 percent of 
San Diego County child abuse cases. It is the precipitating 
factor that drives domestic violence as well as street 
violence.
    Elected policymakers, health administrators and judicial 
authorities have collectively recognized that the criminal 
justice system, social services and health care are 
interrelated and that the best practices of courts and 
effective treatment options must result in a new model that 
reflects the reality and knowledge we have in the year 2000.
    In light of these statistics, it is clear that criminal 
activity in San Diego walks hand-in-hand with the incidence of 
drug and alcohol abuse. Beginning in 1996, the county partnered 
with the courts and other jurisdictions to develop several 
creative and collaborative pilot programs in an attempt to 
lessen the economic and social impacts of alcohol and drug 
abuse in this county. We started this planning process by 
acknowledging that enhancement of local law enforcement alone 
is not the solution. Because alcohol and illicit drug use play 
a part in everything from street crime to domestic violence and 
child abuse or neglect, San Diego has taken a balanced, 
comprehensive and integrated approach to combat alcohol and 
illicit drug use and their resulting impacts.
    These efforts can be seen in the Dependency Court Recovery 
Project and drug courts. We know that coercion works and that 
the heavy hammer of the law can influence an individual's 
choice to be clean and sober. We know that the long-term 
criminal behavior pattern of drug abusers will not change until 
those individuals no longer use drugs.
    The Dependency Court Recovery Project targets the 
documented child abuse and neglect cases that are the result of 
the alcohol and/or drug dependency of one or both of the 
child's parents. This project provides for court supervision of 
the parents linked with the availability of alcohol and drug 
recovery treatment on demand and weekly testing to ensure the 
compliance with court orders. Over 80 percent of parents in the 
Dependency Court Recovery Project are in compliance with court 
orders and thus the courts are able to make more timely 
decisions about the reunification plans for these families and 
their children.
    San Diego County currently has four adult drug courts, one 
juvenile delinquency drug court and one dependency drug court 
in operation. Their program designs closely match the national 
drug court models that offer convicted drug offenders the 
opportunity of entering a closely monitored, 15-month drug 
treatment with both strong incentives and immediate sanctions 
in lieu of other criminal penalties. During the first 34 months 
of operations, the numbers of drug court participants has 
increased steadily until they have reached our operational 
capacity of approximately 500 per year. We now have waiting 
lists in at least two of the drug courts. All drug court 
treatment is currently being funded from a combination of 
short-term grants, participant fees and one time resources such 
as seized asset forfeiture funds from local law enforcement 
agencies.
    Regardless of the success of these drug courts, the 
existing programs are only serving approximately 2 percent of 
the drug-involved criminal cases in San Diego County. To 
effectively accommodate the remaining cases, from early 
diversion to long-term commitments to State prison, a system-
wide approach is being designed that is based upon the same 
principles and practices that have shown success in the drug 
court programs.
    Every jurisdiction in America struggles to some extent with 
the societal and fiscal liabilities of drug abuse. Border 
counties carry an additional burden.
    The funding available through the State Criminal Alien 
Assistance Program, or SCAAP program, partially offsets real 
costs, but reimbursement of the criminal justice costs related 
to our geographic location adjacent to the United States-Mexico 
border is still inadequate. As an example, the drug-related 
cases coming from the border now account for over 57 percent of 
all felony cases issued in South Bay, which is a part of my 
District, up from 24 percent in 1997. The South Bay Branch of 
the San Diego District Attorney's Office reviewed 1,770 cases 
dealing with drug trafficking at our borders in 1999 also a 
substantial increase from only 1,325 in 1997. These increases 
are expected to continue with no anticipated growth in the 
number of personnel. We need the assistance of Federal funds to 
address what is a national and international problem that 
unjustly burdens local taxpayers.
    What we do not need are any more studies. We know what the 
problem is, we know what works, and we need the resources and 
reinforcement to continue to solve these problems with 
practical solutions. Drug treatment must be administered and 
funded as an integral part of the criminal justice system, not 
simply as an ad hoc and piecemeal adjunct to it in a separate, 
inadequate health system. To date, the drug courts have been 
funded through a combination of short-term grants and one-time 
moneys. In recognition of the continuing need for expansion of 
these integrated, cooperative programs, the San Diego County 
Board of Supervisors has endorsed legislation that would create 
on-going program funding for the drug courts for both adult and 
juvenile criminal offenders and for drug abusing parents of 
adjudicated dependent children.
    In closing, you, as legislators have the ability to foster 
cooperative, multi-faceted approaches to reduce drug abuse. The 
Meth Strike Force, drug courts and the Dependency Court 
Recovery Project are prime examples of what can be done when 
elected leaders provide the direction and leadership needed to 
harness the resources of various professionals to address this 
critical problem.
Only through the leadership and fiscal resources that Congress 
can provide can this border region effectively combat drug 
trafficking and drug abuse.
    And I sincerely thank you for your presence here today.
    [The prepared statement of Mr. Cox follows:]

    [GRAPHIC] [TIFF OMITTED] T6899.007
    
    [GRAPHIC] [TIFF OMITTED] T6899.008
    
    [GRAPHIC] [TIFF OMITTED] T6899.009
    
    [GRAPHIC] [TIFF OMITTED] T6899.010
    
    [GRAPHIC] [TIFF OMITTED] T6899.011
    
    [GRAPHIC] [TIFF OMITTED] T6899.012
    
    Mr. Mica. Thank you.
    I will recognize now Sergeant Scott Lee with the San Diego 
Police Department. You are recognized, sir.
    Sgt. Lee. Thank you, Mr. Chairman, Mr. Mica, Congressman 
Souder and Congressman Bilbray. It is an honor to appear before 
you today to give an overview of the narcotics trafficking 
situation in San Diego.
    Let me first introduce myself. I am a Sergeant with the San 
Diego Police Department assigned to the Drug Enforcement 
Administration-hosted Narcotics Task Force, better known as 
NTF. NTF has been in existence for the past 26 years and has 
come to epitomize drug law enforcement in San Diego County. The 
task force is comprised of eight teams, consisting of 100 
people from 16 different Federal, State and local agencies. It 
is responsible for the investigation of major narcotics 
trafficking in San Diego County. Two of the NTF teams, the 
Airport Team and the Parcel Interdiction Team, which I 
supervise, are HIDTA funded.
    NTF has the mission of meeting the drug trafficking threats 
to San Diego County. The arrest and seizure statistics for NTF 
in the last fiscal year clearly illustrates the drug 
trafficking situation in the county. Approximately 50 percent 
of the arrests and seizures were for methamphetamine, as you 
have heard; 35 percent for marijuana, and the other 15 percent 
are for heroin, cocaine and the other dangerous drugs including 
the new ``designer drugs'' which we are seeing more and more in 
San Diego.
    The trafficking characteristics of the two major drugs of 
threat, methamphetamine and marijuana are widely disparate. 
Methamphetamine traffickers are commonly white males with no 
noticeable organizational makeup. Much of the methamphetamine 
is locally produced in small, what we call ``kitchen labs,'' 
however as you mentioned, the majority of the methamphetamine 
seized in San Diego County has been produced in Mexican 
laboratories. Marijuana is likewise smuggled across the United 
States border by Mexican cartels. However, much of the 
marijuana is purchased in San Diego County from the Mexican 
traffickers by organized groups of traffickers prominently led 
by bands of Jamaicans and Puerto Ricans. These groups in turn 
ship the marijuana to cities on the East Coast and Puerto Rico.
    Traditionally, the marijuana had been shipped by common 
carriers such as airlines, buses, trains and/or driving it 
across the United States. However, in the past few years 
narcotic traffickers have increased the use of various 
commercial shipping and mailing establishments such as Federal 
Express, United Parcel Service and the U.S. Post Office. 
Seizure statistics for the past 2 years show an alarming use of 
commercial mailing companies by traffickers to transfer their 
marijuana and money. The Commercial Interdiction team recently 
conducted an intensive mail interdiction operation spanning 11 
days. In that period of time 176 parcels were intercepted, 
which resulted in the seizure of more than 1,600 pounds of 
marijuana and we seized over $300,000 in cash coming back into 
San Diego.
    The close proximity to the Mexican border makes San Diego 
and, recently, Los Angeles, the hub of marijuana trafficking 
for much of the United States. Based on an on-going 
investigation, it is estimated that Jamaican traffickers alone 
ship 100 tons of marijuana from Los Angeles and another 40 or 
50 tons from San Diego in a year period. Profits explain this 
phenomenon. In San Diego, marijuana can be purchased for $300 
to $400 per pound, and then be resold on the East Coast for as 
much as $1,000 to $1,600 per pound.
    With the cooperation of law enforcement agencies on the 
East Coast, what the Parcel Interdiction Team tries to do is we 
intercept the packages when we work these shipping companies. 
We have found that it is much better if we do send the packages 
on to the East Coast where local agencies or DEA will make 
controlled deliveries of these packages, resulting in arrests 
back East and provide us intelligence information so we can 
followup and hopefully make arrests here in San Diego.
    This is a brief overview of the trafficking in San Diego 
County and in conclusion I do want to thank you for allowing my 
testimony.
    [The prepared statement of Sgt. Lee follows:]

    [GRAPHIC] [TIFF OMITTED] T6899.013
    
    [GRAPHIC] [TIFF OMITTED] T6899.014
    
    Mr. Mica. Thank you, and we will now hear from Mr. Jack 
Campana. He is the director of comprehensive health and 
physical education with the San Diego Unified School District. 
You are recognized.
    Mr. Campana. Thank you, Chairman Mica and Congressman 
Souder and Congressman Bilbray. I am pleased as a staff member 
from public education to testify with you, to you this morning.
    Today, in public education, not only must we have high 
achieving students, we must have healthy high achieving 
students.
    Responding to the drug crisis in southern California, San 
Diego City Schools has identified prevention education, 
graduated sanctions and intervention policies and program that 
reflect the interest of students and the community we serve. We 
support and encourage law enforcement officers to become 
involved in providing prevention education and skill building 
at the classroom level by using effective research-based 
models. Superintendent Alan Bersin and Police Chief David 
Bejarano have worked together to bring juvenile service team 
officers into schools to pilot Dr. Gilbert Botvin's Life Skills 
Training that is a research-based substance abuse prevention 
curriculum to grade 5 students at 17 elementary sites. Other 
law enforcement officers work collaboratively with life skills 
teachers assigned to high schools to prevent several other 
successful curriculum lessons. Examples are Looze the Booze, 
alcohol abuse, domestic violence, date rape, border alliance 
issues, and conflict resolution.
    Under the leadership of Special Agent Phil Donohue, the 
Bureau of Narcotic Enforcement has developed a prevention 
education cadre of agents which provide classroom, parent and 
school staff presentations on a wide variety of alcohol, 
tobacco, and other drug topics.
    What is most important and what we have found most 
effective is to have a substance abuse policy. Staff from 
schools, law enforcement, probation, juvenile court, and 
parents developed our policy. All discipline related to 
alcohol, tobacco, and other drugs is enforced consistently 
district-wide and applies to all incidents that occur on campus 
or at activities under the jurisdiction of the school. 
Possession and use of any substance requires a formal 
suspension unless the student and parent agree to participate 
in an early substance intervention program. Formal suspension 
would be one where they could be sent home anywhere from 1 to 5 
days. But if they participate in the program it is still listed 
and tracked as a suspension, but they will remain in school. 
School police and law enforcement officers today provide an 
``event tracking number'' for all juvenile contact involving 
alcohol, tobacco, and other drugs. This tracking system allows 
for educators, law enforcement, and probation to provide early 
intervention and monitor future behavior. Hearing officers from 
the juvenile traffic court, department A, provide an additional 
level of support through the establishment of juvenile drug 
court and a reduction of fines for students participating in a 
substance intervention instruction.
    Data has been evaluated since the inception of the 
Substance Use Policy for Students in 1997. Suspensions for 
alcohol, tobacco, and other drug use have been reduced by 22 
percent. This trend can also be substantiated by results found 
in the 1999 Youth Risk Behavior Survey where 20 percent of the 
students reported that they are not using drugs on campus 
compared to the 1997 data.
    You should have in your folder a summary of the Youth Risk 
Behavior Survey. Our District has participated in this survey 
which is administered by the Centers for Disease Control and 
Prevention since 1991. Its a biannual survey. And what we found 
from 1991 to 1993 to 1995 was a significant increase in 
substance abuse. In 1997, we found it stabilized and equaled to 
1995. And 1999 was the first year in the decade that we have 
some good news. We cannot cheer about it, but it was the first 
time in the decade of the 1990's where we saw a significant 
decrease in use among high school students of all drugs.
    One area though that has remained a tremendous concern 
during the 1990's has been the supply of drugs. Students in San 
Diego City high schools over 40 percent during the decade of 
the 1990's have reported that they have been offered drugs on 
campus. Unfortunately, that is one of the highest percent in 
the nation.
    Mr. Mica. What was the percent?
    Mr. Campana. It has been over 40 percent of our high school 
students have reported that they have been offered drugs, 
illegal drugs. One thing we do know is that the supply 
certainly has remained high during the decades and we still 
must continue our effort to stop and reduce supply, but we do 
have to remember that if we are really going to be effective in 
reducing substance abuse among youth we have to one have 
research-based effective prevention programs and we have to 
have early intervention and good treatment for our students as 
well as adults in this community.
    Thank you.
    [The prepared statement of Mr. Campana follows:]

    [GRAPHIC] [TIFF OMITTED] T6899.015
    
    Mr. Mica. Thank you. Now, I would like to recognize Mr. Tom 
Hall, chief of police for the San Diego Unified School 
District. You are recognized.
    Chief Hall. Thank you, Mr. Chairman and members of the 
subcommittee. The data produced in the 1999 Youth Risk Behavior 
Survey is an accurate picture of the availability and use of 
drugs in our schools. Although we know that drug use occurs 
more often in the community than on our campuses, the education 
of our children remains at risk. Our students arrive to school 
every day armed with values, motivations and life experiences 
that mirror our communities. Unfortunately, the drug culture 
that has evolved over many years has become a significant piece 
in our lives. The majority of our students do not use drugs, 
however, they remain very apathetic to those that do. We have a 
long road ahead of us in educating our youth and the community 
at large in the realities of the negative impacts of drugs.
    The availability of drugs is not a problem to your youth. 
Juvenile arrests for drug abuse in our Nation increased 86 
percent in the last 10 years and unfortunately, the San Diego 
region was on the higher end of the collected data. My 
department's arrests as well as the School District's 
suspension actions further support this reality. It is simply a 
supply and demand issue. In 1998, an undercover drug buy 
operation was conducted at two of our high schools with 
cooperation of the San Diego Police Department. After 3 months 
of operation, 21 students were arrested for sales of narcotics. 
This was a low number as compared to the 150 arrests made 8 
years earlier. However, we also found that our students had 
become much more sophisticated in their transaction procedures 
and usually conducted the physical transfer of these drugs off 
campus. Those arrested indicated that they could find any drug 
demanded within days. Our buys included marijuana, hashish, LSD 
and methamphetamine.
    Although the use of alcohol and drugs is a serious health 
issue and often impairs our students' attendance and learning 
motivation, our major concern is the relationship to violence. 
Our data indicates a cycle that appears predictable. During the 
8 years of high drug use, many of our students display 
disobedient and violent behavior. Student discipline data will 
indicate an increase in referrals and suspensions. This will 
then be followed by an increase in reported violent crimes and 
arrests by my Department and other law enforcement agencies. 
Many of these students reflect an inability to rationally 
manage conflict using nonviolent coping skills. As reported 
drug use declines, so does our discipline and criminal data. 
This has been carried on for the last 14 years.
    These behaviors on our campuses create a perception by 
other students and staff that the campus is unsafe and this 
increased level of fear interrupts the educational process. Our 
data will also show an increase in weapons possession during 
these cycles. In the majority of our arrests, the students 
indicate they consciously violated the District's zero 
tolerance policy and brought the weapons to school for 
protection. They are willing to suffer the severe school and 
criminal justice sanctions to protect themselves and often 
state that they would use the weapon if necessary.
    Although our data and experience will not stand the test of 
research scrutiny, I believe there is a definate correlation 
between drugs and violence that affects safe schools.
    What works best for San Diego city schools is a traditional 
three pronged approach. Prevention, enforcement and treatment. 
Prevention includes educating our students, faculty, parents 
and the community at large on the realities of substance abuse 
and violence. A strong District policy and procedure is also 
part of prevention. Enforcement is essential as a check and 
balance to assure our message is taken seriously. Working in 
tandem, the School District's administrative enforcement 
actions and law enforcement referrals to probation or juvenile 
court assures that students and their parents receive treatment 
and support. There are parents and guardians that simply do not 
participate with their children and require sanctions for 
treatment to occur. Treatment is complex and often requires 
more than addressing substance abuse and/or violence. Family 
dysfunctions are often revealed which can lead to broader 
treatment needs. Enforcement is a necessity, however, 
prevention and treatment is the only long-term solution here.
    We need extensive research to support and examine the 
correlation between drugs and violence, so we can prevent and 
treat these behaviors. We also need additional support, 
especially at the Federal level on public education strategies, 
to get our communities truly involved in finding these 
solutions and then funding to implement them.
    Thank you.
    [The prepared statement of Chief Hall follows:]

    [GRAPHIC] [TIFF OMITTED] T6899.016
    
    [GRAPHIC] [TIFF OMITTED] T6899.017
    
    Mr. Mica. Thank you for your testimony.
    We will now recognized Judge Bonnie Dumanis, Superior Court 
Judge, San Diego, CA.
    Judge Dumanis. Thank you, Mr. Chairman, and thank you all 
for having us here today. I have to say that it is not often 
that I am on this side of the bench, so I am a little bit 
nervous being in this position.
    Mr. Bilbray. Judge, we are much more comfortable being on 
this side of the bench.
    Judge Dumanis. Well, in my courtroom, I am sure that is 
true. At any rate, I am here and pleased to be here and thank 
you, Congressman Bilbray for bringing this committee here. I 
know that you have been intimately involved in the drug issue 
here in San Diego and particularly with the drug court, but I 
appreciate the opportunity to let the chairman and the other 
committee members know what we are doing here in San Diego.
    My background, just so that you know where I am coming 
from, I was a Deputy District Attorney for more than 13 years 
before I went on to the bench, served as a juvenile referee for 
4 years in the juvenile court, 2 years with the parents that 
abuse children and 2 years with the children that commit 
crimes. I have also served in the Municipal Court and now on 
the Superior Court, having been elected to both of those 
positions and I am one of the ones that began the drug court 
program in the Downtown Central San Diego Division.
    I am particularly proud to tell you that our program, the 
San Diego Central division drug court program was on the 
cutting edge as well as many of these programs that have been 
presented today. We were one of the first out of three in the 
country to add our linkages with the San Diego Police 
Department. Before, drug courts were Judge-oriented with the 
law enforcement not being a part of the team. And I think that 
one of the things that all of the panel members have impressed 
upon you is that San Diego can be very proud of its elected 
officials and law enforcement because they have continued to 
collaborate and cooperate in this endeavor.
    As part of our component of collaboration, cooperation and 
coordination, I am proud to say that we have on board as team 
members the Probation Department, the San Diego Police 
Department, the Sheriff's Department, the Parole, California 
Corrections Division, Alcohol and Drug Services and the 
District Attorney, City Attorney and the most unique part, the 
Public Defender. Unique, because I say it is not often that you 
see at the same table in a team meeting a police officer with a 
public defender with a Judge sitting together to make a 
decision about what the right thing to do is with this 
particular person.
    We do that in the following way. Our program is a post-plea 
program which means that in order to get into our program an 
offender must admit responsibility. They must plead guilty 
which means that we save our taxpayers the money of having 
subpoenaed law enforcement, we keep our law enforcement 
officers on the streets and not in jury trials. We have an 
agreement with the participant that they will test regularly. 
That they will come to court weekly, that they will go into 
treatment and that they will become clean, sober and productive 
citizens. The component of drug court that has worked 
particularly is to have hand in hand the courts and law 
enforcement as well as the defense monitoring these offenders 
and I think it has been said before that one of the 
cornerstones to our program is that we have swift, sure 
sanctions and in a criminal justice system that is not always 
the case, particularly the swift part.
    When someone tests positive they go into custody right then 
and there. There is no trial. There is no motion. There is no 
hearing. We talk about it, but they go into jail right from the 
court. The supervision is what we call supervision with a 
vengeance. The police officer goes out, the probation officer 
goes out, checks on the home, the family, those people that 
they are involved in to make sure they are in a clean and sober 
environment. The law enforcement officer is the eyes and ears 
of the court. And the offender gets to know a law enforcement 
officer in a different way. It promotes respect by the 
Defendant for law enforcement and it also promotes law 
enforcement officers having the opportunity to see the outcome 
of what they have been able to begin.
    We, at our graduation ceremonies, give out to law 
enforcement a letter of commendation, as well as a plaque to 
our graduate and we invite every law enforcement officer that 
was the initial arresting officer for that offender. And the 
reason why we give letters of commendation is because although 
it may be an ordinary event for that police officer to make an 
arrest, it leads to an extraordinary outcome and that is we 
have a clean and sober person now in our community working.
    The police officers get an opportunity to see those people 
now at the other end of the system and they have made a change 
and they have facilitated that change. No one is more behind it 
in San Diego than law enforcement because all of us across the 
board, the County Board of Supervisors, Supervisor Jacob has 
been the champion on the Methamphetamine Task Force. Supervisor 
Cox and Supervisor Roberts have been hand in hand with us on 
this drug court emphasis. Out in the juvenile court, Judge 
Millikin has spearheaded the effort for the dependency court 
and the delinquency drug court and is the chair of our county-
wide Drug Court Advisory Committee to begin our system-wide 
approach.
    As pointed out by Supervisor Cox, the problem is that the 
drug court addresses only 2 percent right now of all the 
offenders that we see. I am currently in the domestic violence 
court, and I think he also mentioned that domestic violence we 
see alcohol and substance abuse permeates that as well.
    I think it is fair to say that more than 80 percent of all 
those that come through the criminal justice system have a 
substance abuse problem. It is not the cause, necessarily of 
what happened, but it is, it permeates throughout and it costs 
us a lot of money.
    As I think has been pointed out one of the things that is 
very important and dear to us is the funding sources. We have 
relied on local law enforcement. The Sheriff has given us asset 
forfeiture money. San Diego Police Chief, Chief Sanders and 
then Chief Bejarano have given us block grant money and we have 
received funding from the Nation drug court office. But we do 
not have a stable source of funding. We are always going hat in 
hand to wherever we can. We have even formed a nonprofit 
organization to go out into the community and partnership with 
community members. So we look to you for your help in that 
area, particularly as we go to a system-wide approach which 
would not only be just the drug court, but it would be every 
offender that comes in would have to test for drugs before they 
are released out of custody, would have to go into treatment, 
would have the hammer of the Judge behind that so if they fail 
they go to court, they go to jail and if they cannot make it in 
the community they make it in prison and we are also working on 
the end to have beds in prison available through, we have it 
here in San Diego at Donovan State Prison, the Right Turn 
Program. We now have a female alternative to the State 
Corrections System here in San Diego for females who have 
children to work on that. I could talk forever, so I am going 
to close. Thank you so much, Supervisor Bilbray showed our drug 
court graduates around in Washington, DC. When would you ever 
see that happen? People who have been through the criminal 
justice system with and proud to be taxpaying members of 
society honored by their Congressman to be taken around the 
capital and show cased for the Nation.
    Thank you.
    [The prepared statement of Judge Dumanis follows:]

    [GRAPHIC] [TIFF OMITTED] T6899.018
    
    Mr. Bilbray. Judge, I am honored to be called the 
supervisor.
    Judge Dumanis. I am sorry. You were supervisor.
    Mr. Bilbray. Once part of the team, always part of the 
team.
    Judge Dumanis. That is right.
    Mr. Mica. Well, I want to thank all of our panelists for 
their testimony today. I have a few questions, and then I will 
yield to other Members.
    First of all, with your Meth Strike Force, I understand 
from your testimony it started in 1995, and I was interested in 
how it works with the HIDTA. The HIDTA was started in 1990 and 
the HIDTA did not address the meth problem. This is a local 
initiative?
    Ms. Jacob. The Meth Strike Force was a local initiative, 
yes, and as I mentioned----
    Mr. Mica. Was it totally funded by local contributions?
    Ms. Jacob. It is basically using existing resources, 
existing agencies. The difference here is that we are putting 
law enforcement, education, health officials together with the 
four-pronged approach of prevention, intervention, interdiction 
and treatment.
    Mr. Mica. Have HIDTA resources gone into that effort?
    Ms. Jacob. I believe that they are a part of the Strike 
Force. Undersheriff Jack Drown is one of the co-chairs along 
with Dr. Bob Ross, our Director of Health and Human Resources. 
Again, it is not additional money. It is the resources 
available. It is coordinating and collaborating and bringing 
them all together----
    Mr. Mica. It sounds like you have done a good job locally. 
From our standpoint they are asking for over $200 million for 
HIDTA. I have a HIDTA that I started in my area. There has been 
a HIDTA here from 1990, one of the original ones. I am 
wondering what good they are doing.
    Ms. Jacob. I think that you will hear more from----
    Mr. Mica. No, no. I am interested in hearing from you. 
These guys have this down pat. They will be asking me for more 
money, more resources----
    Ms. Jacob. So will I. HIDTA has been extremely helpful.
    Mr. Mica. But you are here and you are telling me you have 
had a meth epidemic. You are addressing it with a task force. I 
am not sure how the HIDTA fits into it. I am trying to find out 
where our Federal money is in this picture. Maybe, I should not 
be funding that. Maybe, I should be giving you directly more 
resources.
    Ms. Jacob. HIDTA is a part of it. HIDTA is a part of the 
Meth Strike Force effort so more funding for HIDTA means more 
aggressive efforts for the Strike Force as a whole.
    Mr. Mica. And you are happy with the HIDTA performance?
    Ms. Jacob. Absolutely.
    Mr. Mica. If you had to change something, again, this is 
just like a big Board of Supervisors in Washington. It really 
is except it has 435 Members.
    Mr. Bilbray. Except they have a time limit on speaking.
    Mr. Mica. Yes, but we are spending nearly $18 billion on 
this whole effort, and my purpose in being here is to see how 
we can improve it. You are saying we need more money, but you 
have also said that locally you have developed a cooperative 
effort that has been very successful. I am anxious to hear how 
you did that and how we can complement it through our resources 
here.
    As you look at the Federal involvement from your vantage 
point as the supervisor, additional funds, is there anything 
else, additional flexibility, now the court program sounds 
successful. It only addresses 2 percent which is a very small 
figure. Our subcommittee has looked at these prosecution 
programs. We have looked at several models around the country. 
They seem to be very effective if you have the hammer and a 
constant source of funding or support. Is that something that 
you favor too?
    Ms. Jacob. The drug court is strongly supported by the 
Board of Supervisors and we have taken action to expand it 
again its resources that are needed. The drug court is one of 
the most successful programs that we have in treatment.
    Mr. Mica. We have had people in from Arizona. We went up to 
New York and looked at Guiliani's very successful program, the 
same thing.
    Ms. Jacob. Right.
    Mr. Mica. You step out of line, they have got the hammer. 
And a pretty good success rate. Yours sounds similarly 
successful.
    Ms. Jacob. But the systems approach though is what I think 
we need the more resources for because even those programs. 
There are a few nationwide that do a systems approach. They 
have a different track system so that everyone that comes in 
with a substance abuse issue it is a drug charge and we do not 
handle violent offenders though. But everybody that comes in 
has to go through this court, has to be monitored, has to be in 
coerce treatment or they go to prison and even when they are in 
prison they cannot get out of prison unless they complete in 
prison a coerced treatment program they are not let on parole.
    Mr. Mica. And that is State and local funded now?
    Ms. Jacob. Well, we have not begun that process here in San 
Diego. We are looking at that now. I am not sure how the other 
courts have done it, but I did want to let you know, Chairman, 
that the HIDTA Federal grant money did go to the drug court in 
the demand reduction. It was one of the first times they had 
given part of their funding to demand reduction.
    Mr. Mica. I think you all were going to change other things 
at the Federal level. Sergeant Lee, maybe the school folks 
could tell me, is there anything else you see that we need to 
do? We just got through spending $1 billion on an education 
program. We are over a third of $1 billion into it. We have had 
the drug czar in trying to look at what we are doing right and 
wrong. It seems to have had some impact on our students, and we 
are seeing a slight blip nationally, as you said here. I am not 
sure if that is a success of what we have done. It is actually 
a $2 billion program because Clinton wanted us to appropriate 
$1 billion, but we also insisted on a $1 billion in donations. 
So it is actually double that amount, and we have seen the 
first part of it, although a lot of the young people we talked 
to do not seem impressed with the program.
    Do you think it is having any effect?
    Mr. Campana. One of the changes we have observed, 
especially in the last 4 years is that it was not just helter 
skelter here is money and we will just throw money at the 
problem. We now have to certainly evaluate any program we do. 
And it has to be a research-based effective program and that 
has made a difference rather than a cure for substance abuse 
prevention, which we were caught in this month. Every month 
some new group would say this is what you can do and it really 
was not resulting in the positive effect on reducing substance 
abuse, so what we have seen change through Title IV of the 
IASA, Safe and Drug Free Schools is much more accountability 
and effective research program.
    One area that I do not know how you can help, but it 
certainly affected us in San Diego. Under Title IV of the 
Improving America School Act, 70 percent of the money for 
prevention effort to schools is entitlement money, it is so 
much per student. Each State has discretionary funds on how 
they can provide additional support to Districts in need and 
what happens though in this formula is the more success you 
have, the less chance you have of continuing the funding.
    Mr. Mica. That is right.
    Mr. Campana. And we in San Diego city schools lost 
approximately $750,000 because of having a reduction. That has 
caused reduction in the program. And that is something that I 
hope in legislation and in Title IV that they can be some 
incentive for successful programs.
    Mr. Mica. If I may, Mr. Lee or Sergeant Lee, did you have 
something, any recommendations you would like to see changed in 
any legislation operations from the Federal level?
    Sgt. Lee. Speaking primarily for the team that I supervised 
which is HIDTA funded, when that team was originally developed 
we in San Diego were interdicting the drugs here, keeping the 
drugs here. It was thought that a lot of the people shipping 
drugs throughout the United States were not organized. We are 
now finding that it is probably a much bigger organization 
sending that out there, primarily Jamaicans and Puerto Ricans 
as we are seeing.
    The funding that we do have was appropriate at the time 
when we thought it was more unorganized. However, the 
investigations that we are doing now, it is a much bigger 
problem throughout the United States and that is why we are 
cooperating with the different agencies throughout the eastern 
seaboard. The funding probably could be increased to fight 
that.
    Mr. Mica. We are hearing that. I have heard that in 
hearings that we have been doing around the country. In fact, 
as a result of this hearing, we are going to conduct a national 
hearing on that at some point to see if we cannot help get that 
better organized in an effort to address that particular new 
problem.
    Mr. Souder.
    Mr. Souder. Thank you. I have a number of things. First, if 
you were not aware of this, you have joined a distinguished 
group of people who testify in front of our committee. At least 
you are answering our questions. We have had Charlie Tree last 
week who could not remember who was at his apartment when the 
calls went to Indonesia and to the White House, and we had 
Craig Livingstone who could not remember who hired him, and at 
Waco the ATF could not remember who exactly left the search 
warrant in their car. So it is a distinguished group of people 
you are joining.
    Mr. Mica. With good recall.
    Mr. Souder. A couple of things. I am going to go a couple 
different directions. I did want to make a comment that several 
of you mentioned about a stable source of funding which the 
Federal Government is not and will not ever be. First off, 
constitutionally, we are bound by 2 years in the funding cycle, 
so every program has to be reanalyzed, so there is no such 
thing as a stable funding source, plus we go up and down much 
faster than what happens at the local county, State and 
volunteer sector. So do not view that if you have a stable, 
whether it is the COPS grants that we put in or whether it is 
drug courts, 1 year it is up and the next year it is down which 
is why historically the money has been used on hard goods as 
opposed to personnel because it is so unstable which has kind 
of distorted the systems too.
    Another thing, I could not resist, although Mr. Campana 
qualified a little, is that when we in the Education Committee 
go into research base and what that has actually been done as 
we put it into the things. It is a tremendous job boost for 
beltway bandits who do research because then everybody comes, 
and I have never heard of a program that has failed in any 
hearing in Congress or as a staffer unless they found the 
solution now and want the money. E.D. Herscher wrote Cultural 
Literacy. We had a tremendous exchange on that trying to define 
even better what good research is. I think it has helped in 
some places. In other ways, it is trying to define it even 
further as we get into it without putting too much control on 
it because that is a great way to manipulate the locals by 
having a Federal decision of what is research based. So I just 
wanted to throw that in the record.
    I have some very specific questions. Let me start with the 
drug court. What percentage of your money comes from asset 
forfeiture?
    Judge Dumanis. I do not recall.
    Mr. Souder. Good, at least you have not fled the country.
    Judge Dumanis. I was only joking, but I am told it is less 
than 10 percent.
    Mr. Souder. And is that asset forfeiture money?
    Judge Dumanis. The Sheriff of San Diego represents all the 
Sheriff contract agencies for all the smaller cities and then 
the San Diego Police Department as well as the smaller cities 
like Chula Vista has given the South Bay area some of their. So 
almost all of law enforcement has pitched in to their capacity 
with some.
    Mr. Souder. And do you know what percent came from HIDTA?
    Judge Dumanis. HIDTA was a small percent. We received, it 
went actually to the Police Department, but for the purpose of 
drug court, I think it was a vehicle for the police officer 
that was liaising to the Department for equipment, primarily. 
So I am not exactly certain what the amount was.
    Mr. Souder. In Mr. Cox's testimony he said this has been 
approximately 3 years?
    Judge Dumanis. That is true.
    Mr. Souder. And you are up to nearly 500 cases?
    Judge Dumanis. 500 graduates.
    Mr. Souder. Graduates.
    Judge Dumanis. Yes.
    Mr. Souder. When you say you have had success, are the 
people coming into the drug court preselected, self-selected? 
Who determines who is eligible? Obviously, not violent, I 
understand that.
    Judge Dumanis. The prosecutor begins the screening process, 
but we have an overall criteria which actually we came to 
consensus with our Criminal Justice Subcommittee--I am not sure 
what it is a subcommittee of. But anyway, all of those of us 
here at the table are represented there as well as the 
community is represented, Supervisor Jacob, I know chairs that 
committee.
    Mr. Souder. Before somebody comes in?
    Judge Dumanis. No, we just got together and got some 
criteria. So the criteria basically is considering public 
safety is the primary concern, so if they have prison priors 
for violent felonies or even prison priors, that usually 
excludes them. If they have any violence that excludes them. In 
San Diego in the Central Division, if they were driving while 
under the influence because of the public safety concerns that 
usually excludes them. So it is usually people that use drugs 
as a felony or as a misdemeanor or are drug driven in their 
crimes. We try to take some of them as well into the program.
    Mr. Souder. Do you do any kind of screening as to whether 
you think this might be successful? In other words, do you look 
at a person and say this is a relatively recent thing? There is 
a support system around them?
    Judge Dumanis. No. We do not.
    Mr. Souder. Education background?
    Judge Dumanis. No.
    Mr. Souder. No creaming?
    Judge Dumanis. No. We usually take the bottom of the 
barrel. I mean most of the people who choose to come into our 
program choose to because they want to get clean and sober 
though because they have been in jail most of the time. They 
usually have about 10 cases per person.
    Mr. Souder. So it is self-selecting.
    Judge Dumanis. Yes, it is self-selecting in that situation.
    Mr. Souder. How many people who have self-selected 
initially have dropped out?
    Judge Dumanis. About 20 percent and dropped out not just by 
their own choice, dropped out by the court's choice as well. We 
sentence them to either prison or local custody and some of 
them have dropped out because they cannot handle the strictness 
of the program.
    Mr. Souder. One of the problems we have had in the drug 
court in my home area is that depending on the mix is if their 
sentence is not that severe, they may drop out. Not because 
they are necessarily guilty, but they do not want to go through 
the drug testing and so on. They figure hey, this is not worth 
it. I will just serve the rest of my term. There is too much 
accountability which I think is great.
    Judge Dumanis. Exactly. That is the problem. For them. It 
is not a problem for us.
    Mr. Souder. And then how many did you say have relapsed out 
of the graduates?
    Judge Dumanis. Out of the graduates I think it was 8 
percent, and I do not know about relapse. What we have been 
tracking is whether they came back into the criminal justice 
system. So it is a very small percentage, but I just want to 
let you know that in our original program when we had only 
misdemeanors, we now have felonies also, but that theory that 
they had to have a long sentence did not hold for us. More than 
100 of our people were self-selected misdemeanors, so the most 
they could get in local custody would be 1 year and the most 
they would serve even when that 1 year because of the crowding 
in the jails would be around 6 months. So they knew that for 
many of them they could do that on their head, doing 6 months 
in custody because they had spent most of their life in 
custody, but they wanted to get clean and sober and they took 
this rigorous program to do it even despite the fact that we 
did not have a high sentence hanging over their head.
    Mr. Souder. How many had been through other treatment 
programs?
    Judge Dumanis. Many of them have been through other 
treatment programs, but they have never been coerce treatment. 
We have not had good success in the past in the criminal 
justice system to tell them to go out and get treatment, but we 
have not monitored it and probation has not had enough 
resources to really monitor either. Now when we have them come 
back we monitor, we get reports from those programs and we put 
them in jail if they do not go to those programs.
    Mr. Souder. Thank you. As we move into the drug court last 
year, we boosted up in a separate amendment on the House floor. 
I know, I like many others, that when you are dealing with a 
hard case population, so to speak, there is unrealistic 
expectations of the success rates, and we have to be careful we 
do not overestimate this one too because I mean many of your 
500 have just gone in----
    Judge Dumanis. That is right.
    Mr. Souder. And when we compare to other places where there 
is relapses, we are often looking at 10 year release period, 
but the fact is that it is hard to see any negatives to this 
and certainly every case, even if in the end it only reaches 30 
percent. The truth is that our research on treatment programs 
shows it is not very successful which now leads me into the 
prevention programs. I wanted to talk about this Title IV 
question that you raised.
    What you are suggesting, and I favor driving, we put almost 
everything at a State level and none to the schools. That is 
still being debated in the final form of the bill. I take it 
that you definitely feel that at least 70 percent ought to be 
driven to the school districts?
    Mr. Campana. Correct, even higher.
    Mr. Souder. And part of the argument against that is that 
in small school districts, they do not reach the threshold and 
we also cannot screen which programs are effective and not 
effective which I understand that argument.
    But coming back the other direction, in effect, I know you 
did not mean it this way, but this is the dilemma we have when 
we are dealing with the subsection. You said that there is no 
incentive for success. Well, obviously the incentive here 
should not be funding. The incentive for success is you are 
helping kids in the school district, and you are changing your 
community and that it is hard to argue. One of the dilemmas 
here is if a problem is starting to get solved in one place, 
presumably the problem is getting solved in one place, and 
while I understand if suddenly you pull the program, it 
changes. On the other hand, the danger of putting it into an 
area where it is not getting solved, it may not be getting 
solved because of the programs are bad, but it may not be 
getting solved because the demographics are changing and so on. 
It does not mean we should not be concentrating on those areas. 
Would you have it be a phase down? I am facing this in my 
district, too, where I have the successful programs are getting 
reduced.
    Mr. Campana. What I mentioned and I clarified in the 
beginning that is not an easy decision. What happens is clearly 
the success of a program is that you reduced substance abuse, 
but when the funding is pulled, the very program and the people 
who were put in as a result of funding from this program are 
now pulled back. And that is what I mean this is incentive for 
success is that you no longer can have the program if the funds 
are pulled.
    Mr. Souder. And how would you do that? Clearly, we are 
going to move some of that. The truth is that we are in a zero 
sum game that we can talk about. We heard plenty of ways to 
spend the money here at this hearing as well as Sacramento and 
wherever else we go, but you know, Medicare prescriptions are 
coming up and Social Security trust fund and not to mention 
more funds for education in general. There is a limited amount 
of dollars. You would like to think that as you make progress 
in an area, you can at least guess what percentage of that do 
you think you can pick up from the State and local and 
voluntary sources because it is clearly not going to be 100 
percent sustenance to places where they have had a dramatic 
drop. Hopefully, that will not be a disencentive because the 
problem is so great, every body should want to do it. But can 
it be 100, 75, 50, 25? Clearly, there is going to be a drop.
    Mr. Campana. I do not have a formula and I have been at a 
number of meetings where this has been discussed and no one can 
come up--we have not been able to come up with a consensus. But 
I would like to see something where if we can show, for 
example, today in our State an improvement in educational 
achievement, the school gets additional resources and 
additional funds per student. Cannot we have something in here 
as well that if we can show a drop, a significant drop, some 
measure that there is some recognition by saying we are going 
to allow you to continue at least that program, not saying we 
are pulling funds so you no longer can have the program?
    Mr. Souder. My background is business, MBA, and one of the 
things you hear is figures lie and liars figure. I am not going 
to quite put it in those terms, but often inside a school 
district, the improvement is being shown in prevention programs 
in the more middle class white suburban portions of school 
districts. The problem has not been improved in the highest 
risk population. In other words, if you are a drug abuser, you 
are a drug abuser, but partly what we are trying to do is 
concentrate into the highest risk populations where the 
violence is and where there are less resources. Quite frankly 
suburban and middle class families such as mine, middle, upper 
middle families have resources with which to address the 
problem if they would have the willingness. Other places do not 
even have the resources. Are these figures fairly uniform when 
you say you have a reduction, or are they scattered? In effect, 
if I looked at each school, would I see a reduction in the 
schools?
    Mr. Campana. The way the surveillance is using CDC 
surveillance system of the Youth Risk Behavior Survey, they 
have been fairly uniform, but not completely. We do see areas 
where and with certain ethnic groups, for example, tobacco use 
among Latino youth is still very high and did not show the 
reduction as other groups. But that is the importance of having 
even a local district or a county or a community to do its own 
surveillance, so with limited dollars you would say well now I 
have to be able to stress a program in certain areas of your 
community with certain groups, ethnic groups within the 
community.
    Mr. Souder. Thank you. I know I went over. I had one 
question I meant to ask about the drug courts. Do you see a 
difference in meth from other drugs?
    Judge Dumanis. What do you mean a difference----
    Mr. Souder. In other words, is there less success rate?
    Judge Dumanis. No. I think the statistics are about 50 
percent of those that we see through the drug court are 
methamphetamine is their drug of choice, but we did receive a 
grant to specifically work on the issue of methamphetamine and 
the problems that are related to methamphetamine and our 
treatment providers have geared their program toward that, but 
we have not seen a significant difference in their success 
rate.
    Mr. Souder. Mr. Cox, in your testimony, you had Dependency 
Court Recovery Project. Eighty percent of the parents in the 
Dependency Court Recovery Project during compliance of court 
orders and for renotification, did you see any differences in 
meth? I mean what is troubling is up in Sacramento, I forget 
the name of the county where they had put an intensive parental 
program in, people were more likely to be so addicted that they 
were dropping out and not doing the program. Thirty-four and 
only four or something did that. They were starting to see it 
in the other places. I am wondering are you seeing it in meth 
as opposed to marijuana, cocaine, heroin, alcohol?
    Mr. Cox. The last figures I saw, the success ratio is 
comparable to other drugs of choice. I think one of the 
benefits of that program is the fact that the period of time 
that it has taken to adjudicate what is going to happen to the 
dependent has gone from over 36 months average to make a 
determination whether that child is going to be placed back 
with their biological parents or not is now reducing down to 
somewhere in the neighborhood of about 18 months and that is a 
significant change. But I do not think there has been any 
significant difference as far as the drug of choice.
    Mr. Souder. Thank you.
    Mr. Mica. Thank you, Mr. Bilbray?
    Mr. Bilbray. Thank you. OK, I guess I will start with you, 
Judge, because you want to try to remember?
    Judge Dumanis. Yes, Congressman Bilbray.
    Mr. Bilbray. Let me just say I think we are starting to 
hear more of us in government talk about a term that used to be 
called tough love, treating people in trouble the way we treat 
a relative or a child or a friend, something that government 
was not willing to do in the past. But you broach an issue that 
is very touchy to a lot of us and that is this issue of 
testing. Many people are concerned about the encroachment of 
big government on privacy. But the testing component within 
your system, how critical is testing for the success of your 
program?
    Judge Dumanis. Absolutely. It is the most fundamental part 
of the program is the testing because it is for the 
accountability. When we have these drug users in front of us 
they will lie, cheat and steal and there are websites that will 
tell you how to beat the drug testing. They have come into 
court with urine hidden under their arms or use chlorine on 
their fingernails. When the officers go out into the field and 
test them, when they are not expecting it and that is when they 
get them or they test randomly. Through our courts we have them 
call in. They do not know when they are going to have to test 
and it is at least three times a week. It is absolutely 
critical to the program because otherwise they will try to 
manipulate you and they could come to court and say that they 
are clean and they are not.
    Mr. Bilbray. My committee on the Health and the Environment 
of the Commerce Committee has been doing a lot of hearings on 
new testing systems, the use of hair which can go back to 3 
months sensitivity. We hope to be able to have better 
technology for you to use that is less intrusive and more 
telling.
    What are the school systems using? Is testing being used in 
the educational institutions?
    Mr. Campana. It is in some and it is probably the area 
where it has been used has been in sports participation and 
athletic teams. In San Diego Unified we do not mandate testing 
and I have some difficulty with that personally. I would really 
like to have young people know that there are right decisions 
that they make and they do not make them because somebody is 
going to find out if they are wrong because the majority of our 
children, not only in San Diego, but throughout the country do 
make the right choices and are not using drugs. And to test all 
students is also giving a message that we somehow do not trust 
them in making the right choices.
    Mr. Bilbray. But in the use of the athletics and as 
somebody who probably spent more time going to school just 
because of athletics, there is this attitude that participation 
in certain activities in school is a privilege, not a right and 
that educational institutions use that.
    Would it not be a lot easier to implement those programs if 
we had the less intrusive snip of hair rather than going to the 
urine sample? Would there not be a different perception about 
the humiliation and the inconvenience of the traditional 
testing period, I mean system, as opposed to a less intrusive?
    Mr. Campana. It would be less intrusive, right, with 
certainly a snip of the hair, but again I still feel that most 
students are not using and we would like to certainly have them 
have the skills and the ability to make right choices and just 
know that they are not to use.
    I think we work on the other end is that with the policy we 
have graduated sanctions. If a student is found with possession 
and use, even the first time, they cannot participate at least 
for a semester in any activity. A second time, it is for a full 
year and if there was a third time, they are recommended for 
expulsion.
    Mr. Bilbray. By your own admission though it is most of the 
use and possession is off campus?
    Mr. Campana. Most of the use and possession is off campus, 
but it is also certainly when you have several percent of 
students saying that they are using on campus, it does not mean 
just during the school day. It could be an athletic event or it 
could be on school property; 7, 8, 9 percent of students 
reporting they are using alcohol, marijuana is still 
significantly high.
    Mr. Bilbray. Well, let me just say it was a tradition in 
our family that after a summer on the beach, the first thing a 
coach would do when you wanted to play football was if your 
hair was too long, he would give you a helmet two sizes too 
small. When you complained, he would inform you that it will 
fit fine as soon as you got the buzz, and so haircuts were part 
of the tradition of those of us in athletics for a long time. 
Believe me, I thought my rights were being violated too.
    Chief Hall. Congressman Bilbray? If I may, I alluded to 
this in the testimony about the apathy of our public and our 
parents. This is an important issue when we are talking about 
testing and making followups with the behavior of youth and 
their children. First of all, the public in my reading does not 
support doing on-going testing. We had a student spike a 
teacher's drink with LSD and he almost died, 2\1/2\ years ago. 
In that investigation and this is from a middle school, we 
revealed the names of 43 students who were heavily involved in 
drugs in the community, but at which point we could not arrest. 
It was good, confirmed information through the narcotics task 
force and our officers in that investigation. We called at 
least one or both parents of every one of those children and 
advised them of what we knew, that the child would not be 
arrested and we gave them the name of laboratories and 
suggested they have their children tested. We also gave them a 
list and mailed it to them of all of the treatment facilities 
and centers and programs available to them. Only 31 percent of 
the parents followed up and had their children tested. Of the 
31 percent all of them tested positive and all of those 
children went to drug programs with supportive parents and to 
our knowledge have not been recidivists in the system. The 
others had a 54 percent recidivism rate within 1 year.
    So it speaks to the apathy. We have a long road ahead of us 
in educating our public on the seriousness of these behaviors. 
It is no longer when your child comes home and they tell you he 
is drinking and many of the parents will still go ``well thank 
God it is not drugs.'' It is an addiction. It is substance 
abuse whether it is alcohol or drugs and we have got a tough 
road.
    Mr. Bilbray. Chief, well, I appreciate that information. 
One of the frustrations we had in Washington is a lot of our 
attitudes in Washington needed a change. We actually had the 
FDA that was not willing to license home testing systems 
because at the same time, they were fast tracking home 
pregnancy testing. They were blocking home drug testing because 
of their perception that there was a privacy issue for the 
child being imposed by the parent and that Washington was going 
to decide if a parent would have the option to be able to have 
a testing system or not. And in the testimony, basically, it 
was an interesting concept. In fact, I made the point of 
looking at somebody, look at their age and those of us who were 
derelicts of the 1960's may want to rethink our attitudes about 
drug use and how serious we want to do it. I only bring it up 
because I grew up in a community that had extensive drug use, 
much of it was military, driven military. And I would say to 
you, Mr. Chairman, I would really suggest the committee study 
what the U.S. military did to curtail drug use among their 
personnel because they were serious about it. They used 
research. They used drug sniffing dogs and they used periodic 
testing, and I do not think there was any place in American 
society where we have seen such a dramatic drop off of use as 
we saw with the Department of Defense. The other success is 
Department of Transportation. And so I just hope we build on 
those successes.
    Now Mr. Cox, one of our frustrations that we ran into with 
the county was how many people that were on public assistance 
were also identified as being involved with drug use. You and 
Supervisor Jacob were very instrumental in implementing a 
program that we had only dreamed of being able to do. Then, you 
did it with the support of people that traditionally opposed 
testing, at least who did initially. And that was the fact that 
civil libertarian lawyers not only did not go to court to block 
you at that time, they embraced the concept.
    Can you explain to this body what you did with your general 
relief and the issue of testing and how you integrated that in 
with your treatment and the total package approach?
    Mr. Cox. What we did and I think it was around 1997, we 
took an action that would require any new applicant for general 
relief to have to submit as a condition of their eligibility a 
urine test and if they were positive then we offered them a 
program as a condition of their eligibility for treatment and 
prevention and you are right, the normal opponents of that type 
of a program were supportive because it was tied in with 
treatment for the individual.
    And that is one of the things in the study that we did, the 
$1.8 billion cost of drug and alcohol costs that was 
experienced in the county of San Diego in 1995, only 2 percent 
of that total cost was in the area of treatment and prevention 
and I think if we can do more focusing on treatment and 
prevention programs, in the long run those costs will go down 
significantly. That is the biggest hurdle that we have to deal 
with is--and most of our programs we run in the county that 
even if we determine there is a problem and this is 
particularly true in the dependency court it would take 5 to 6 
weeks to get somebody into a treatment program. Now under Judge 
Millikin, once that parent comes into his courtroom, they are 
basically given a choice. Do you want to keep using drugs or do 
you want to keep your kids? And if they want to keep their kids 
then by the time they leave the courtroom they are meeting with 
a social worker. They are getting placed in a treatment program 
and the balance of the sanctions, if you will, the tough love 
as you referred to it, is in place, ready to go.
    So if I can implore anything on you, it would be we need to 
focus more resources than we are currently on treatment and 
prevention.
    Mr. Bilbray. I would just like to point out to my 
colleagues as you pointed out, the issue of where the problem 
rests is not generally spread out. It is concentrated in 
certain components of society. Those components to be where 
there is more public resources being expended proportionally 
than anywhere else in society. One of the things that San Diego 
County pointed to is make sure that the public resources that 
were going in to help children, to help the needy, were not 
being diverted into substance abuse and paying for a whole new 
program or problem. And the key here was the fact of using the 
results of positive testing as an entry way into treatment 
rather than a punitive action and I think that was the key in 
there and I want to commend you on that.
    Supervisor Jacob, I want to commend you at using a term 
that I want us to use more often too and that is contamination. 
Drugs contaminate the community, and San Diego County has one 
big advantage when we talk about contamination. Many of the 
precursors of methamphetamine are identified as hazardous 
materials and are regulated by environmental health agencies. 
You may want to explain to the committee, quickly because we 
have got another panel, how tracking those hazardous materials 
for environmental reasons gave San Diego an upper hand in being 
able to identify how and where resources were being made 
available for meth labs.
    Ms. Jacob. I am not sure about your question.
    Mr. Bilbray. Well, I meant the way the hazardous materials 
people could be able to at least inform the Sheriff's 
Department that there was a whole lot of these precursors that 
were going to some residence or being bought by somebody who 
did not have a legitimate purpose and that information being 
able to be used by law enforcement. And it was an environmental 
issue that ended up being a law enforcement issue.
    Ms. Jacob. Again, it is an example of the Meth Strike Force 
which is bringing agencies together and there is more 
cooperation because they are talking. There are 70 different 
individuals that are sitting basically around a table from 
education, health, law enforcement, at Federal, State and local 
level so the environmental health issue when the hazardous 
materials team goes in to clean up a lab, they talk to law 
enforcement and identify not only the ingredients in the meth, 
but also again it involves the District Attorney in the Child 
Endangerment Unit the DA has put in place. It has been very 
successful that I talked about earlier.
    So the multi-faceted approach is working well in San Diego 
County and to me it is these kinds of efforts that we have 
demonstrated success because we are measuring our success 
through the report card that I just provided some recent 
information for you. If we can get resources to put into a 
program like this that is working and working well through 
collaboration, I think we will have a chance of eradicating the 
community of the deadly drugs that are out there. That would be 
the ideal.
    Mr. Mica. Thank you. Mr. Souder had a followup.
    Mr. Souder. I had a quick followup question on the AFDC, 
Mr. Cox, Ms. Jacob or whoever. Can you use AFDC funds, the 
welfare funds for the drug treatment? Can that be used or how 
do you pay for the drug treatment?
    Mr. Cox. The AFDC funds are all local funds. There is no 
State or Federal money that comes into that so the treatment is 
actually through other funding sources available through the 
county.
    Ms. Jacob. The general relief.
    Mr. Cox. I am sorry, the general relief. General relief is 
all county funds.
    Mr. Souder. So you do not have any AFDC funds there?
    Mr. Cox. Not in general relief.
    Mr. Souder. Would you be allowed to use it to help pay for 
that if you chose?
    Mr. Cox. Well, it would be----
    Ms. Jacob. That is Federal money.
    Mr. Cox. You mean the AFDC funds?
    Mr. Souder. Yes. In other words, the States are asking us 
because right now they are running surpluses that they cannot 
tap into because, in fact, the welfare rolls have been reduced 
because of welfare reform. The question is could some of that 
dollars be used to pay for drug treatment for the people who 
are stuck in the welfare system?
    We will check to see. I was just wondering.
    Mr. Bilbray. That is an innovative idea.
    Ms. Jacob. One of the things that should happen very 
quickly here, back to the drug testing that Congressman Bilbray 
mentioned, we did have some flexibility with general relief 
welfare because that was county funded program and just by 
posting the fact, putting up a sign fact that people were going 
to get drug tested when they came in for general relief 
welfare, actually half of them at the time we ran the numbers 
did not come back just because they knew they would be tested.
    Now the problem when we get into what was known as AFDC now 
is TANIF is that the State law has changed so that there has to 
be reasonable cause. These are people with children, as we all 
know, but we do not have the local authority to drug test these 
mothers, these individuals, let alone the treatment programs. 
That is a problem.
    Mr. Mica. I want to take this opportunity to thank all of 
you. You spent several hours of your morning with us, you 
provided our subcommittee with some insight as to how you are 
tackling your local and regional problem here, and how we can 
do a little bit better job in assisting you. Hopefully, we have 
learned some of that today.
    I always invite our panelists, particularly those not from 
Washington to contact me. If there is something you did not 
want to say publicly to address it to me or to the subcommittee 
that needs our attention. Sometimes, working with the different 
agencies, you are reluctant in a public forum or under oath at 
a hearing to relay those comments, but I do welcome any of your 
suggestions on how we can do a better job to tackle this. And I 
salute you. You have a monumental task. You are at a geographic 
position that puts you right in the middle of a number of 
issues, a corridor that is very difficult to control. It 
appears that you have tackled that locally as best you can with 
limited resources, and unfortunately, with limited assistance 
from the Federal level. I thank Mr. Bilbray again for inviting 
us here and for your participation this morning and to this 
afternoon. Thank you, and you are excused.
    I will call our second panel, if I may. Our second panel 
consists of Mr. Edward Logan, Special Agent in Charge of the 
U.S. Customs Service in San Diego. The next witness is 
Undersheriff Jack Drown, and he is Executive Committee Chair, 
the California Border Alliance Group, Southwest Border HIDTA. 
Another witness on this panel is Captain Robert Allen. He is 
the Commander of Activities at the San Diego U.S. Coast Guard 
operations in San Diego here. Then Mr. William Veal, who is the 
Chief Patrol Agent of San Diego Sector of the Immigration and 
Naturalization Service.
    As I mentioned to the previous panel, we are an 
investigations and oversight panel in Congress, and we do swear 
our witnesses. Some of you may have testified before Congress. 
If you would please stand and rise, raise your right hands.
    [Witnesses sworn.]
    Mr. Mica. The witnesses answered in the affirmative, and I 
am pleased to welcome you. I understand Mr. Veal is only able 
to be with us until 12:30, so we are going to recognize him 
first. He is Chief Patrol Agent from the San Diego Sector of 
INS. Welcome, sir, and you are recognized.

   STATEMENTS OF WILLIAM VEAL, CHIEF PATROL AGENT, SAN DIEGO 
 SECTOR, IMMIGRATION AND NATURALIZATION SERVICE; EDWARD LOGAN, 
 SPECIAL AGENT IN CHARGE, U.S. CUSTOMS SERVICE, SAN DIEGO, CA; 
UNDERSHERIFF JACK DROWN, EXECUTIVE COMMITTEE CHAIR, CALIFORNIA 
  BORDER ALLIANCE GROUP, SOUTHWEST BORDER HIDTA; AND CAPTAIN 
   ROBERT ALLEN, COMMANDER, ACTIVITIES SAN DIEGO, U.S. COAST 
                      GUARD, SAN DIEGO, CA

    Mr. Veal. Thank you, sir. Thank you for the change of 
order. Chairman Mica, Congressman Souder, Congressman Bilbray, 
let me begin by thanking you and your colleagues who have 
worked diligently to provide the U.S. Border Patrol with the 
resources to gain control of the border against the illegal 
smuggling of drugs, aliens and contraband into our Nation. I am 
very proud of the men and women of the San Diego Sector and I 
feel privileged to be able to represent them here today. Their 
commitment and professionalism have made possible the success 
we have achieved so far. We have brought a sense of order and 
law to what was once a chaotic and out of control border 
between San Diego and Mexico. We have made life much more 
difficult for the drug and alien smugglers who frequent the 
border area and who before Operation Gatekeeper brought their 
wares across our border with virtual impunity.
    The U.S. Border Patrol is the primary Federal agency tasked 
with land interdiction of illegal aliens and narcotics between 
our ports of entry. The 2,150 agents of the San Diego Sector 
maintain a highly visible presence along the 66-mile San Diego 
County-Mexican border and also cover 7,000 square miles of land 
and water boundaries.
    Our mission is a focused, phased approach toward obtaining 
a border that deters drug traffickers, alien smugglers and 
other criminals. Based on our intelligence reports and actual 
experience, drug smuggling and alien smuggling are often 
linked.
    The Border Patrol employs a multi-faceted strategy at the 
immediate border. We deploy agents in highly visible positions. 
We use utilize fences, high-powered stadium lighting, 
electronic sensor systems, infra-red night vision scopes, low 
light television cameras. We utilize horse patrols, boat 
patrols, helicopters and even bicycle patrols. We also employ a 
system of checkpoints situated along major roads and highways 
leading away from the border areas to deter the movement of and 
to intercept both illegal aliens and drugs.
    I do not need to tell Congressman Bilbray this. He lived 
through it, but when I came to San Diego, my first assignment 
here in 1975, this was the most out of control segment of our 
border. From 1974 through 1994, of our almost 2,000 mile long 
border with Mexico, the 66 miles which comprised San Diego 
County accounted traditionally for 50 percent of all the 
illegal activity on the border. And within that 66 miles, the 
first 5 miles of border from the Pacific Ocean to the San 
Ysidro port of entry accounted again for the 50 percent of the 
activity within the San Diego sector. So here we had generally 
25 percent of all the illegal activity occurring on our 
Nation's border with Mexico occurring in that 5 mile segment. 
It was clearly an unacceptable situation.
    Since Operation Gatekeeper began in 1994 illegal entries in 
that area, historically the most heavily trafficked corridor in 
the United States has dropped 92 percent. Overall, 
apprehensions in the sector have fallen 66 percent or in that 
same period. Local law enforcement officials have attributed 
much of the decrease in crime in several communities to our 
ability to do our job. Felony arrests for narcotics, marijuana 
and other dangerous drugs within the county declined by 24 
percent from 1994 to 1998.
    Prior to 1992, there was inadequate fencing along the 
border. In some areas, border fencing was nonexistent. In some 
places, paved streets in Tijuana paralleled the border and at 
weak spots single and multiple truckloads of aliens and drugs 
drove across the border at will and blended into the flow of 
vehicle traffic in the United States.
    With considerable assistance from Congressman Duncan 
Hunter, the California National Guard and other military 
engineering units, this changed dramatically through the 
erection of the landing mat fence on the border. Construction 
of border security roads has allowed us to patrol close to the 
fence and monitor it for attempts to cut the fence and also to 
drive over the fence. Gatekeeper's success in the first 14 
miles led the drug smugglers into the far reaches of East San 
Diego County. Cross border vehicular entries were further 
restricted by the construction of vehicle barriers and primary 
fencing in vehicle accessible areas. These advances have 
required drug smugglers now to backpack drugs across the border 
until they can reach a vehicle. With the heightened 
surveillance provided by our agents with sensors and night 
scopes, it becomes difficult for smugglers to bring in and load 
significant quantities of narcotics.
    The traffickers still try. Our permanent and temporary 
checkpoints plus the agents who monitor traffic on East County 
back roads continue to discover drugs brought in either in San 
Diego or Imperial County. During fiscal year 1999, 75 percent 
of our interdictions occurred in East County.
    Technology has vastly improved our detection and resource 
deployment. A large portion of San Diego sector drug seizures 
and a tremendous amount of real time intelligence results from 
over 950 electronic sensors placed along remote smuggling 
routes in the border area. The sector has 39 long range infra-
red scopes located to provide maximum coverage at border 
crossing points as well as to deprive smugglers of the cover of 
darkness. These scopes have discovered backpackers, suspicious 
vehicles and even smugglers in wet suits with drugs lashed to 
surfboards.
    We have 28 canine units to locate concealed people and 
drugs. So far in fiscal year 2000 these 28 canines have 
accounted for drug seizures valued at over $28 million.
    After climbing steadily from 1993 to 1995, our interdiction 
seizures have fallen in the last 4 fiscal years reflecting the 
effectiveness of the enforcement efforts between the ports of 
entry. Despite this, this fiscal year our marijuana intercepts 
already equal the same period last year. The drug smugglers 
keep trying new avenues and searching for weak spots.
    The Border Patrol is a very active member of the HIDTA. 
Under the HIDTA, the Law Enforcement Coordinating Center [LECC] 
in East County operates as an intelligence-driven, joint task 
force to deny drug smugglers their traditional routes between 
the ports of entry. The Law Enforcement Coordination Center 
works to coordinate interdiction and investigative assets to 
detect, disrupt and dismantle major trafficking organizations.
    Since the inception of the LECC and with enhanced efforts 
between the ports of entry, there has been a 75 percent 
increase in seizures at the ports of entry. The improved 
coordination and cooperation has increased the effectiveness of 
every law enforcement agency. We have unquestionably increased 
the cost of business for drug trafficking organizations.
    Other HIDTA initiative is the San Diego Maritime Task Force 
comprised principally of the U.S. Customs Service, the U.S. 
Coast Guard and the U.S. Border Patrol. While the Task Force 
focuses on the investigation and interception of sea-borne 
smuggling in Pacific coastal waters, it also investigates 
international smuggling originating at considerable distance 
from the U.S. territorial waters.
    Because of the volume of opportunistic smugglers working in 
coastal waters, the San Diego Sector has established a Marine 
Unit utilizing night scopes and two 21-foot Zodiac inflatables, 
one of which, Mr. Chairman, is on view outside this building. 
The Border Patrol Marine Unit has successfully intercepted a 
number of smuggling vessels and forced many others to return 
back to Mexican waters.
    The San Diego Sector receives considerable support from the 
U.S. military, particularly the California National Guard. They 
have been instrumental in providing us officers, personnel who 
serve as intelligence analysts, electronics technicians, bus 
drivers, sensor monitors, scope operators, freeing up Border 
Patrol agents for line assignments.
    In summary, the mission of the Border Patrol has remained 
the same, to work in cooperation with other agencies in a 
mutually beneficial spirit to secure our national borders. 
Regaining control of our borders is an on-going task. No single 
initiative or program can achieve the goal, but through joint 
operations that we have realized here in San Diego we have 
achieved a real synergy.
    I appreciate the attention of the subcommittee to the 
problems that we face. Thank you for this opportunity.
    Mr. Mica. Thank you, and we are going to let you go in just 
a second. I had a couple of quick questions. How many full-time 
positions do you have in this area, INS?
    Mr. Veal. Sir, I cannot speak for INS, but for the Border 
Patrol----
    Mr. Mica. The Border Patrol, OK.
    Mr. Veal. Yes sir, officers, men and women who are Border 
Patrol agents, 2,150.
    Mr. Mica. That is Border Patrol, 2,150. How many of those 
positions are filled? Are those working? Mr. Bilbray has been 
on me about the number of positions that are not filled that we 
have appropriated. How many positions do we have that are 
vacant?
    Mr. Veal. I cannot give you the exact number, sir, but the 
last time I checked it was less than 100.
    Mr. Mica. Less than 100?
    Mr. Veal. Yes.
    Mr. Mica. So you are able to fill those. Of the 2,150 is 
that your total positions? There is 100 vacant?
    Mr. Veal. No sir. We also have a number of personnel and 
support positions who are not officers.
    Mr. Mica. OK.
    Mr. Veal. I can supply those numbers to you.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6899.019
    
    [GRAPHIC] [TIFF OMITTED] T6899.020
    
    [GRAPHIC] [TIFF OMITTED] T6899.021
    
    [GRAPHIC] [TIFF OMITTED] T6899.022
    
    [GRAPHIC] [TIFF OMITTED] T6899.023
    
    [GRAPHIC] [TIFF OMITTED] T6899.024
    
    [GRAPHIC] [TIFF OMITTED] T6899.025
    
    Mr. Mica. Are there problems with getting personnel to fill 
the positions? Is there something missing or is this a normal 
vacancy right?
    Mr. Veal. I think there are two factors involved, Mr. 
Chairman. One is there is a normal rate of attrition. We do 
recruit nationally and a lot of folks like to get their job, 
start their job and then try to relocate to an area closer to 
home. Another thing is we are not very competitive salary-wise 
in the southern California law enforcement community and I 
think that spurs attrition also.
    Mr. Mica. High turnover?
    Mr. Veal. Yes sir.
    Mr. Mica. Mr. Souder, did you have any quick ones for Mr. 
Veal?
    Mr. Souder. Yes, I have a pet peeve question I want to ask, 
and I have not been able to ask it in a hearing before because, 
although I was at San Luis Obispo in 1996, I had not been down 
along the fence. To the east side of the city, I do not know 
how far out it was where the fence separates and there is kind 
of a no man's land in there and you were talking about catching 
people who cut the fence and so on, there is a great big 
drainage area that was not sealed off when I was there about a 
year and a half ago. Is that still not sealed off?
    Mr. Veal. Sir, I would be pleased to take you down there 
and see that that is no longer a problem.
    Mr. Souder. Good, because my understanding was is EPA had 
kept that from being sealed off and whatever used to be in 
there was clearly being trampled to death.
    Mr. Veal. We do, sir, continue to have problems in 
complying with NEPA and doing the infrastructure that we want, 
but Congressman Bilbray was very helpful to us in overcoming 
many of those hurdles.
    Mr. Souder. Because if there are additional ones, I am 
interested in doing some oversight on it because there was also 
orange posts up on the hills where a bird was hatching. When I 
talked to the Border Patrol agents on the ground, not dressed 
up and I do not know that they knew that I was a Congressman, 
because I think they thought I was a staffer because we were 
not going on an official tour, they said oh yeah, they just run 
in up to those areas. Well, whatever was being hatched there is 
deader than if we had not zoned off the areas.
    Mr. Veal. Yes.
    Mr. Souder. And I would like to know those kind of 
inconsistencies if you come up with others. Thank you very 
much.
    Mr. Veal. Yes. Thank you.
    Mr. Mica. Finally, how would you describe the cooperation 
with the Mexican officials?
    Mr. Veal. I would describe it as spotty. There is no real 
institutional relationship between my organization and Mexican 
Government organizations. Those relationships are generally 
personal. We try to contact the heads of the Mexican and 
Federal agencies and
build from the ground up a relationship of trust. I will say 
that we have, over time, developed an improved degree of 
cooperation. We have provided the Mexicans with the means of 
directly communicating with our officers without having to go 
through an intermediary and that has been a very helpful thing 
for us.
    [The prepared statement of Mr. Veal follows:]

    [GRAPHIC] [TIFF OMITTED] T6899.026
    
    [GRAPHIC] [TIFF OMITTED] T6899.027
    
    [GRAPHIC] [TIFF OMITTED] T6899.028
    
    [GRAPHIC] [TIFF OMITTED] T6899.029
    
    [GRAPHIC] [TIFF OMITTED] T6899.030
    
    [GRAPHIC] [TIFF OMITTED] T6899.031
    
    [GRAPHIC] [TIFF OMITTED] T6899.032
    
    [GRAPHIC] [TIFF OMITTED] T6899.033
    
    [GRAPHIC] [TIFF OMITTED] T6899.034
    
    [GRAPHIC] [TIFF OMITTED] T6899.035
    
    [GRAPHIC] [TIFF OMITTED] T6899.036
    
    [GRAPHIC] [TIFF OMITTED] T6899.037
    
    [GRAPHIC] [TIFF OMITTED] T6899.038
    
    Mr. Mica. Thank you. We are going to excuse you, Mr. Veal, 
I know you have a plane to catch.
    I promised I would let him scoot at this point, so you are 
excused and Mr. Edward Logan, U.S. Customs Service, San Diego, 
you are recognized.
    Mr. Logan. Thank you, Mr. Chairman and members of the 
subcommittee. I am pleased to appear before you today to 
discuss the Customs Service's efforts to combat the drug crisis 
in California.
    Before discussing our efforts, I want to first give you the 
sense of our overall challenges. As the committee is well 
aware, the Customs Service in California must work at a multi-
dimensional threat environment. While we have positioned most 
of our personnel and resources facing south along the 150 mile 
land border that we share with Mexico to screen persons, 
conveyances and goods moving north, we also must be watchful on 
southbound trade and traffic which may carry weapons, 
undeclared currency, hazardous materials, controlled 
technology, thousands of stolen cars or fugitives from justice 
leaving California for Mexico.
    At the same time due to our geography we also must look 
westward where the Pacific Ocean provides yet another avenue 
for drug smugglers long schooled in the ways in moving 
narcotics by sea. We also must be able to look up and monitor 
our skies which became in the 1970's and 1980's the quickest 
way for drugs to enter the country in a wide variety of 
aircraft. And last, all the agencies along the border must be 
ever vigilant to the presence of tunnels which have been 
created to move both narcotics and illegal migrants into the 
United States.
    Within our area of operations in fiscal year 1999 we 
encountered over 30 million passenger vehicles, 95 million 
persons, almost a million trucks, thousands of pleasure craft 
and cleared for entry into the United States commerce over $12 
billion of trade from Mexico. To meet our threat, we have 
deployed personnel, technology, aircraft and vessels to screen 
the border environment, whether that be on land, in the air or 
at sea, all of which pose unique challenges.
    I would be remiss, Mr. Chairman, if I did not express our 
agency's gratitude for the significant funding provided by the 
Congress for new aircraft and nonintrusive inspection 
technology in fiscal year 1999. Culled from this enormous 
haystack of people and conveyances the Customs Service seized 
192 tons of marijuana, 5 tons of cocaine, 1,164 pounds of 
methamphetamine and 226 pounds of heroin along with arresting 
over 4,00 drug smugglers. In 8 short years, we have witnessed 
drug seizures rise at our California ports of entry from 370, 
370 in 1991 to over 4,000 in 1998. Last year, over 58 percent 
and this kind of tracks with what Bill Veal had to say, 58 
percent of all detected drug smuggling events at United States 
ports of entry along the whole Mexican border occurred right 
here in California.
    While Customs is responsible for enforcing more than 600 
sections of U.S. code on behalf of 60 other Federal agencies 
and routinely conducts a wide variety of investigations on 
everything from trade fraud, cyber smuggling to money 
laundering, Commissioner Kelly has clearly stated that 
interdicting narcotics and dismantling drug smuggling 
organizations is our highest priority.
    As demonstrated by our very large haystack, the windows of 
opportunities for would be drug smugglers are staggering and 
the number climbs each year as the benefits of NAFTA continue 
to increase trade with our southern neighbor which rose 115 
percent from 1994 to 1998.
    Our efforts to deal with our ever increasing workload may 
be characterized as follows: continuous coordination with 
Federal and State and local resources through coalition law 
enforcement; the utilization of technology, effective 
intelligence gathering and sharing and proactive investigative 
operations targeted at drug smuggling organizations.
    Of growing concern to the Customs Service is the widespread 
smuggling and use of the dance club drug known as Ecstacy. The 
popularity of Ecstacy is spreading faster than any drug since 
crack cocaine and it threatens to erode the foundation of our 
Nation's youth its most common user. While Ecstacy production 
has been primarily traced to the Netherlands, Canada, on a 
limited basis in Spain, there have been indications that 
Mexican drug trafficking organizations may have become 
involved. Nationwide, seizures of Ecstasy have increased eight 
fold since 1997 and in 1999 topped 2.5 million dosage units. We 
expect to far exceed these figures in 2000.
    Customs is committed to remaining on the forefront of this 
emerging drug smuggling trend and in response we have formed an 
Ecstasy Task Force in Washington to husband our resources 
against this high profile threat.
    Coalition law enforcement is nothing new to the San Diego 
law enforcement community and the Customs Service has forged 
strong alliances with its counterparts to combat the increase 
in drug smuggling activity along our border. Certainly, the 
various local high intensity drug trafficking areas which 
Undersheriff Drown will talk about are examples. Those of us 
who work on the California-Mexican border know that it is an 
environment in which drug smugglers routinely infiltrate 
narcotics into legitimate trade and commerce on a daily basis 
while also attempting to exploit the vastness of the Pacific 
and the remote terrain along our border.
    The traffickers and smugglers are experienced, well 
financed, often well trained and sadly, highly effective in 
their efforts.
    In conclusion, we take great pride in our California law 
enforcement coalition as the Customs Service is not alone in 
our counter narcotics efforts. We are shoulder to shoulder with 
all the agencies, Federal and State who have resources 
dedicated to this important effort.
    I am proud to represent the Customs Service in providing 
insights into the hard work being conducted along the border.
    Thank you very much.
    [The prepared statement of Mr. Logan follows:]

    [GRAPHIC] [TIFF OMITTED] T6899.039
    
    [GRAPHIC] [TIFF OMITTED] T6899.040
    
    [GRAPHIC] [TIFF OMITTED] T6899.041
    
    [GRAPHIC] [TIFF OMITTED] T6899.042
    
    [GRAPHIC] [TIFF OMITTED] T6899.043
    
    [GRAPHIC] [TIFF OMITTED] T6899.044
    
    [GRAPHIC] [TIFF OMITTED] T6899.045
    
    [GRAPHIC] [TIFF OMITTED] T6899.046
    
    Mr. Souder [presiding]. Thank you very much for your 
testimony.
    Sheriff Drown.
    Mr. Drown. Good morning, Mr. Chair, Congressman Bilbray, 
welcome to San Diego. Welcome home. I am Jack Drown. I am the 
Undersheriff for San Diego County and chairman of the 
California Border Alliance Group, a designated high intensity 
drug trafficking area or HIDTA for San Diego and Imperial 
Counties. I also chair the county's Methamphetamine Strike 
Force and I have been in local law enforcement here in San 
Diego County for 30 years.
    I am pleased to be here and thank you for the opportunity 
to present testimony before you this morning.
    First, let me express my appreciation for the Congress' and 
ONDCP's recognition that while border enforcement and border 
control may be a Federal responsibility, everything that occurs 
along the border is a local impact. And I think that is a key 
concept for folks looking in to our situation here in San Diego 
to fully understand. Everything that occurs along the border is 
a local impact.
    As you know, the Southwest Border HIDTA is one of the 
largest most diverse and unique of the 31 HIDTAs throughout the 
country. There are 45 counties and 5 Federal judicial districts 
in the five regional HIDTAs that make up the Southwest Border 
HIDTA: Southern California, Arizona, New Mexico, West Texas and 
South Texas. Drug trafficking from the southwest border, 
without question, affects the entire Nation. The 2,000 mile 
southwest border represents the arrival zone for South American 
produced cocaine and heroin as well as Mexican produced 
methamphetamine, heroin, marijuana, other dangerous drugs and 
precursor chemicals used to manufacture illicit drugs in the 
United States.
    The California Border Alliance Group, also know as CBAG was 
designated in 1990 as one of the five partnerships of the 
Southwest Border HIDTA. The CBAG's area of responsibility is 
comprised of San Diego and Imperial Counties, 8,900 square 
miles from the Mexican border to the Orange and Riverside 
County lines and from the Pacific Ocean to the Arizona State 
line. The location and geography are unique. Terrain that 
ranges from seaports and beaches to mountains and deserts, yet 
home to San Diego, the sixth largest city in our Nation.
    There are two large Mexican cities directly to our south 
served by six points of entry including San Ysidro, the busiest 
land port in the world. Tijuana's population is estimated at 2 
million and growing. Mexicali with a population of 1 million is 
the capital of Baja California Norte. The 149 mile California-
Mexican border is only 7 percent of the entire United States-
Mexican border but it is home to 60 percent of the people who 
reside on both sides of that border.
    Major highways connect San Diego and the Imperial Valley to 
Mexico, Los Angeles and points north and east. Maritime routes, 
railways, international airports, smaller airfields and 
clandestine landing strips are also a major concern. Because of 
our location and proximity to Mexico, drug smuggling is here 
and likely will remain here for years to come.
    The primary drug threat to our region, the importation of 
illegal drugs and precursor chemicals from Mexico, our own 
domestic production of methamphetamine and marijuana, high drug 
re-use rates, especially methamphetamine and border violence 
spills over and impacts our regions. Suffice to say, San Diego 
County and Imperial Counties suffer from triple whammy. We are 
high trafficking areas, high production and manufacturing areas 
and high use areas.
    Although both heroin and marijuana seizures are up from 
last year, methamphetamine use and production continues to be 
our major problem. In the CBAG area alone 67 labs were seized 
in 1999, 1,700 were seized Statewide. California continues to 
lead the Nation in clandestine methamphetamine lab seizures. 
Most disturbingly are the number of children present at these 
heavily contaminated sites, children who have been removed 
under the Drug Endangered Children's Program for treatment, 
assessment and placement services.
    Methamphetamine use in our region continues to be a 
significant public safety and health problem; 75 percent, 75 
percent of the arrestees at the Visa Jail in northern San Diego 
County tested positive for methamphetamine or admitted 
methamphetamine use during the year of 1999.
    Our regional response to the drug threat is based on a 
foundation of Federal, State and local agency cooperation and 
coordination. We are proud of the fact that this region was one 
of the first, if not the first, to form an integrated Federal, 
State and local law enforcement drug task force in the early 
1970's. This task force set the tone for the level of 
cooperation in our HIDTA today.
    As a designated HIDTA area, we realize our response to the 
border and drug problem must be comprehensive, must be as 
comprehensive as resources will allow. There is no magic 
solution. We did not get here overnight. We do not get out of 
this overnight. Therefore, our regional strategies provide for 
a balanced mix of interdiction, investigations, prosecutions, 
intelligence and support initiatives that are continually 
adjusted to address the changes in the threat. We also support 
a very cost-efficient and effective demand reduction effort 
which concentrates on educating young people about the 
consequences of drug use.
    I have provided you with written materials that describe 
our HIDTA initiatives in detail, but please allow me to 
highlight just a few of our more innovative efforts.
    With your permission sir, I will continue? The CBAG's 
methamphetamine initiative exemplifies the multi-faceted 
approach to a critical regional problem. The San Diego 
Methamphetamine Strike Force is a cross jurisdictional effort 
created by the San Diego County Board of Supervisors to support 
the National Methamphetamine Strategy with local action, co-
chaired by myself and Dr. Bob Ross, a San Diego County Health 
and Human Services Director, the Strike Force is composed of 
law enforcement leaders and substantive experts, more than 70 
different people representing courts, treatment and prevention 
providers. You have heard of the Strike Force from Supervisor 
Jacob. So I am not going to dwell on that. Suffice it to say we 
believe it is a very effective approach to the methamphetamine 
problems in San Diego County.
    One of the Strike Force's initiatives is going to take 
place in the city Vista, a city in northern San Diego County 
where are bringing together cops, courts, treatment providers, 
city government, hospitals and educators in a coordinated 
effort focusing on prevention, intervention, interdiction and 
treatment efforts to reduce the use of methamphetamine in one 
particular community.
    Drug courts, while not specifically a HIDTA program play a 
large part in our efforts within the Meth Strike Force and 
throughout the region. As you have been told in the past 2 
years, San Diego County drug courts have processed over 450 
nonviolent offenders; 90 percent of those who complete the 1-
year program remain drug free. Interestingly and importantly, 
compare the drug court costs of $300 per month to the cost of 
$2,000 per month for incarceration and I think you can see this 
is a very cost effective and productive approach.
    The Drug Endangered Children's Program, previously 
mentioned, provides specially trained on-call Deputy District 
Attorneys and child protection workers who actually participate 
with law enforcement in the planning for raids on clandestine 
methamphetamine labs in order to properly take custody of and 
care for the children who are present at about 25 percent of 
the meth labs that we have.
    The children are entered into the established health care 
and social work protocols while the District Attorney insures 
that child endangerment enhancements to sentences for lab 
operators are included in charges against the violators. This 
program is proving to be a strong and effective deterrent that 
deserves national implementation. Perhaps more importantly, I 
dare say we are rescuing children from years of potential 
neglect and abuse and a very distinct potential of future drug 
use and addiction themselves.
    The California Precursor Committee and the National 
Methamphetamine Chemical Initiative provide training and 
coordination throughout the Nation in the investigation and 
prosecution of rogue chemical and pharmaceutical companies, as 
well as retailers who illegally supply the listed chemicals and 
equipment needed to make methamphetamine, chemicals I might 
add, and recipes I might add, that can be obtained simply 
through the network.
    This program that was begun here as a regional effort was 
expanded last year into a national effort focusing on proven 
practices to reduce the availability of precursor chemicals.
    Another example of Federal and local cooperation is the 
Combined Prosecutors' Initiative which provides funding for 
cross-designated assistant U.S. attorneys and deputy district 
attorneys and the prosecution of border drug cases in State 
court. In the past 2 years, the San Diego County District 
Attorney's Office handled 3,400 port of entry and other border 
drug arrests allowing the U.S. attorney's Office to concentrate 
on major violators and conspiracies while insuring that low 
level violators are prosecuted and a measure of deterrence is 
maintained.
    Ironically, the number of cases being handled by the DA's 
office has now reached the limits of their capacity, another 
example of local impact of which I spoke earlier.
    And what was intended to relieve the Federal prosecutor's 
burden has now severely impacted the local prosecutions in both 
San Diego and Imperial Counties.
    We have had great success this year in San Diego County. I 
believe that the primary foundation of our success is indeed a 
level of cooperation and coordination that has served us 
extremely well. There are certainly areas that we need to 
improve on and much needs to be done. We are particularly 
concerned about the maritime routes and potential for ocean 
smuggling. Intelligence and information gathering is always a 
major topic of discussion. We believe that we are making 
progress in that area and yet there are still probably too many 
examples where information is gathered and kept by one single 
agency, rather than being shared.
    I think it is important to recognize that many will appear 
before you and ask you for increased funding. We certainly 
would join them, but I think the more important message is we 
are doing well with the money that you have supplied us through 
the Southwest Border HIDTA. We can always do better. We would 
implore you to at least leave our level of funding where it is 
at and certainly if you can--if you have the means available to 
you, we believe that increased funding would enhance what we 
are doing down here in the Southwest Border and we appreciate 
your being here in San Diego and I appreciate the opportunity 
to appear before you and present you with testimony.
    Thank you.
    [The prepared statement of Mr. Drown follows:]

    [GRAPHIC] [TIFF OMITTED] T6899.047
    
    [GRAPHIC] [TIFF OMITTED] T6899.048
    
    [GRAPHIC] [TIFF OMITTED] T6899.049
    
    [GRAPHIC] [TIFF OMITTED] T6899.050
    
    [GRAPHIC] [TIFF OMITTED] T6899.051
    
    [GRAPHIC] [TIFF OMITTED] T6899.052
    
    [GRAPHIC] [TIFF OMITTED] T6899.053
    
    [GRAPHIC] [TIFF OMITTED] T6899.054
    
    [GRAPHIC] [TIFF OMITTED] T6899.055
    
    [GRAPHIC] [TIFF OMITTED] T6899.056
    
    [GRAPHIC] [TIFF OMITTED] T6899.057
    
    [GRAPHIC] [TIFF OMITTED] T6899.058
    
    [GRAPHIC] [TIFF OMITTED] T6899.059
    
    [GRAPHIC] [TIFF OMITTED] T6899.060
    
    [GRAPHIC] [TIFF OMITTED] T6899.061
    
    [GRAPHIC] [TIFF OMITTED] T6899.062
    
    [GRAPHIC] [TIFF OMITTED] T6899.063
    
    [GRAPHIC] [TIFF OMITTED] T6899.064
    
    [GRAPHIC] [TIFF OMITTED] T6899.065
    
    [GRAPHIC] [TIFF OMITTED] T6899.066
    
    [GRAPHIC] [TIFF OMITTED] T6899.067
    
    [GRAPHIC] [TIFF OMITTED] T6899.068
    
    [GRAPHIC] [TIFF OMITTED] T6899.069
    
    [GRAPHIC] [TIFF OMITTED] T6899.070
    
    [GRAPHIC] [TIFF OMITTED] T6899.071
    
    [GRAPHIC] [TIFF OMITTED] T6899.072
    
    [GRAPHIC] [TIFF OMITTED] T6899.073
    
    [GRAPHIC] [TIFF OMITTED] T6899.074
    
    [GRAPHIC] [TIFF OMITTED] T6899.075
    
    [GRAPHIC] [TIFF OMITTED] T6899.076
    
    [GRAPHIC] [TIFF OMITTED] T6899.077
    
    [GRAPHIC] [TIFF OMITTED] T6899.078
    
    [GRAPHIC] [TIFF OMITTED] T6899.079
    
    [GRAPHIC] [TIFF OMITTED] T6899.080
    
    [GRAPHIC] [TIFF OMITTED] T6899.081
    
    [GRAPHIC] [TIFF OMITTED] T6899.082
    
    [GRAPHIC] [TIFF OMITTED] T6899.083
    
    [GRAPHIC] [TIFF OMITTED] T6899.084
    
    [GRAPHIC] [TIFF OMITTED] T6899.085
    
    [GRAPHIC] [TIFF OMITTED] T6899.086
    
    [GRAPHIC] [TIFF OMITTED] T6899.087
    
    Mr. Mica [presiding]. Thank you.
    We will now hear from Captain Robert Allen, U.S. Coast 
Guard, San Diego.
    Capt. Allen. Thank you. Good afternoon, Mr. Chairman, 
Congressman Souder, Congressman Bilbray. I am pleased to be 
here today with you to discuss the Coast Guard's effort to 
interdict drug smugglers at sea and how we can improve our 
effectiveness in stemming drug smuggling through the transit 
and arrival zones leading to and in the vicinity of southern 
California.
    I am honored to be able to host this hearing here at 
Activities San Diego, a Coast Guard unit with a long and proud 
history of service to our country.
    The Coast Guard is the lead agency for maritime drug 
interdiction and shares the lead for air interdiction with the 
U.S. Customs Service. As the only Armed Service with law 
enforcement authority, and the only Federal agency with broad 
enforcement authority on the high seas, the Coast Guard is on 
the front line in the maritime drug interdiction effort. In the 
southern California and Eastern Pacific region we have seen a 
dramatic increase in cocaine smuggling in the past few years. 
To date in fiscal year 2000, the Coast Guard has interdicted 
over 72,000 pounds of cocaine, and more than 60,000 pounds, or 
84 percent, of that total was interdicted in the Eastern 
Pacific. These numbers are significant and they may very well 
represent a shifting trend by the drug smugglers. Within this 
context, our counterdrug efforts in the Eastern Pacific and 
southern California take on added significance.
    The Coast Guard focuses on reducing the supply of illegal 
drugs through maritime interdiction using a layered approach. 
In the Eastern Pacific, we interdict drug smugglers in the 
departure zone near Colombia and the transit zones of the 
Central American and Mexican coasts and at the arrival zones in 
the United States using a variety of surface and air assets. We 
know that large cocaine shipments coming up from Colombia are 
often off-loaded to smaller ``go-fasts'' boats or ``pangas'' 
for further transport into Central America and Mexico, where 
much of the cocaine is then transported primarily via land 
routes into southern California. In addition to these large 
cocaine shipments, we have experienced a continual flow of 
smaller drug loads, mostly marijuana, coming across the 
maritime extensions of the Mexico-United States border. Last 
year, we intercepted over 7,000 pounds of marijuana transported 
through a myriad of maritime conveyances, small boats, jet 
skis, kayaks, and rigid-hull inflatable boats, as well as 
individuals attempting to swim ashore with their drugs in tow.
    Operation BORDER SHIELD is a maritime pulse operation 
comprised of an in-shore component along the coastal waters of 
the United States-Mexico southwestern border and an off-shore 
component along the western coast of the Baja Peninsula. 
Activities San Diego has coordinated the in-shore component of 
this operation since its inception 3 years ago by using 
reservists and temporarily assigned active duty personnel drawn 
from units throughout the Coast Guard, but relying heavily on 
our local units.
    We work closely with other agencies to coordinate our 
counterdrug operations and I am fortunate to sit as a member of 
the Executive Committee of the California Border Alliance Group 
[CBAG], with so many Federal, State, and local agencies 
fighting the war on drugs, CBAG is an essential organization 
which creates synergies and improves our overall effectiveness.
    Pulse operations such as Border Shield, combined with our 
heavy, tasking in other missions areas can take a toll on our 
personnel and equipment readiness. Our operational tempo 
continues to climb with increasing demands on our personnel and 
their families. To insure we maintain sufficient readiness for 
emergent missions, I have been directed to no longer sustain 
routine operations, despite their productivity, by overtaxing 
my units. This approach marks a new awareness that there are 
limits on what we can accomplish, given the resources that are 
available.
    We will still answer the search and rescue alarm, but other 
missions, namely maritime security operations, may have to be 
scaled back.
    In summary, the drug threat is increasing in southern 
California and the Coast Guard must maintain a robust, fast, 
and mobile force and a proactive interdiction strategy. Our 
resources are spread thin. We have inadequate maritime patrol 
aircraft support for our cutters and patrol boats. We must rely 
on annual supplemental funding and the use of temporary duty 
personnel to continue our counterdrug operations at the present 
level, not knowing from year to year what to expect in terms of 
funding and other resources.
    New technologies, interagency cooperation, and improved 
intelligence gathering and dissemination are essential to 
increasing effectiveness. The Coast Guard's Deepwater 
recapitalization project and readiness-related budget 
initiatives within the President's fiscal year 2001 budget will 
improve our capabilities for drug interdiction and other 
missions.
    Thank you for the opportunity to appear before you this 
morning. I would like to recognize your support, oversight, and 
commitment to the national counterdrug effort. Thank you.
    [The prepared statement of Captain Allen follows:]

    [GRAPHIC] [TIFF OMITTED] T6899.088
    
    [GRAPHIC] [TIFF OMITTED] T6899.089
    
    [GRAPHIC] [TIFF OMITTED] T6899.090
    
    [GRAPHIC] [TIFF OMITTED] T6899.091
    
    [GRAPHIC] [TIFF OMITTED] T6899.092
    
    [GRAPHIC] [TIFF OMITTED] T6899.093
    
    [GRAPHIC] [TIFF OMITTED] T6899.094
    
    [GRAPHIC] [TIFF OMITTED] T6899.095
    
    [GRAPHIC] [TIFF OMITTED] T6899.096
    
    [GRAPHIC] [TIFF OMITTED] T6899.097
    
    Mr. Mica. Thank you.
    I have a couple of questions, first for Undersheriff Jack 
Drown. What is the total dollar figure spent on this HIDTA?
    Mr. Drown. For year 2000 our dollar amount here is $10,407, 
excuse me, $10 million.
    Mr. Souder. A lot of accomplishments.
    Mr. Drown. A lot of accomplishments for $10,000. We get a 
good bang for your buck here in San Diego let me tell you. 
$10,407,701, out of the total Southwest Border HIDTA funding of 
$46 million.
    Mr. Mica. So you get $10 million out of the----
    Mr. Drown. Out of the $46 million.
    Mr. Mica. So the entire Southwest Border HIDTA, we are 
spending $46 million which is basically almost 30 percent of 
the whole HIDTA budget, the national budget, is it not?
    Mr. Drown. Yes.
    Mr. Mica. Because we are looking at trying to go $200 
million.
    Mr. Bilbray. Remember 58 percent.
    Mr. Drown. We have close to 60 percent of course for the 
population and I would suggest with the business land port.
    Mr. Mica. But I come from Florida, and Florida will tell me 
they are catching all the drugs, if you look at the seizures. 
Folks on the East Coast say they are catching all the drugs. 
And I just had the Border Patrol head here testify that since 
1995 his seizures are consistently down. And we went to 
Sacramento, and they said I-5 is like a direct conduit. I mean 
they are showing us buckets, literally buckets of meth and 
cocaine coming up through I-5, like you guys are not doing 
anything down here.
    Mr. Drown. I would say we are doing our best as we possibly 
can.
    Mr. Mica. Is he right? His seizures are down. Your seizures 
are up.
    Capt. Allen. Ours are up.
    Mr. Mica. And Customs seizures are up.
    Mr. Bilbray. One of the things you have got to point out 
with the Border Patrol is that Operation Gatekeeper kicked in, 
as the fences were built, as we did----
    Mr. Mica. There was less coming across that way. So now it 
is coming up not I-95 conveniently, or I-5. We have I-95, it is 
coming up I-95 in Florida.
    Mr. Logan. We believe it created a deterrent effect at 
ports of entry and certainly in the marine environment and we 
have seen direct evidence of that and with our haystack, we 
cannot set the screen levels to a point where we would 
essentially stop traffic and international trade and we are 
certainly willing to put the levels of screens that Congress 
foresees and the U.S. Congress mandates, but----
    Mr. Mica. The other thing that concerns me about the 
testimony I heard today is I have a HIDTA, one of the oldest 
HIDTA, one of the best funded HIDTAs, and the supervisor over 
here tells me that in 1995 they created their own Meth Task 
Force. That was not your initiative. That was the local 
initiative? Do you now support it?
    Mr. Drown. Oh no. Let me clarify. I am the co-chair of the 
Meth Strike Force.
    Mr. Mica. OK.
    Mr. Drown. It has been in existence----
    Mr. Mica. Is that a HIDTA-initiated or local?
    Mr. Drown. No, it was locally initiated.
    Mr. Mica. Do you put money into it?
    Mr. Drown. And HIDTA does add some support to it. It is not 
a great deal of money.
    Mr. Mica. How much? How much have you put into it since 
1995?
    Do you want to repeat that?
    Mr. Drown. Yes, I will, sir. About $80,000 has gone into 
the Meth Strike Force. It is predominantly gone into support of 
the District Partners Program allowing for overtime for Deputy 
Sheriffs assigned to that program and to support the hotline 
that has been----
    Mr. Mica. And your HIDTA also supports demand reduction?
    Mr. Drown. We do, about 6 percent of our money goes into 
demand reduction programs and you previously asked a question 
about perhaps what could be done somewhat differently. Let me 
make the statement that first of all I have been a local law 
enforcement officer for 30 years. The testimony that you 
received earlier from our Board Members, from Judge Dumanis, I 
think you would find the local law enforcement here is 
completely and 100 percent behind the efforts that are going on 
in terms of an equal balance between reduction and supply and I 
certainly feel that way.
    Having said that I think it is very important that when we 
form these local coalitions and these cooperative efforts that 
we be allowed to have some degree of flexibility with the 
moneys obtained, to be able to look at our problems locally and 
to be able to distribute those moneys accordingly, we feel 
somewhat restricted in terms of the amount of moneys that we 
and the sanctions for supporting some demand reduction type 
efforts. We have been very, we have felt somewhat constrained 
in terms of our support for the drug courts. We would like to 
do more for the drug court. We would like to do more in some of 
our demand reduction programs, but our own DCPE regulations and 
direction are somewhat limiting in that regard.
    Mr. Mica. Do you follow any of the missing persons related 
to drug cases?
    Mr. Drown. I am sorry?
    Mr. Mica. Do you follow any of the missing persons related 
to drug cases?
    Mr. Drown. The ones down here in Tijuana and San Diego.
    Mr. Mica. Are there many here? How many Americans are 
missing with the drug-related--10, 20, 100?
    Mr. Drown. I would not be able to give you a number on 
that.
    Mr. Mica. Could you check that?
    Mr. Drown. Sure.
    Mr. Mica. And which side of the border.
    Mr. Drown. And which side of the border. There is no 
question that the proximity to Mexico, particularly Tijuana 
creates major problems for us. We talked briefly about the 
violence and the violence, and how it spills over into this 
county and this region. Chicago of 1920's pales in comparison 
to Tijuana of 2000, no question about it. And it has a definite 
significant impact on people living in this region.
    Mr. Mica. Mr. Souder.
    Mr. Souder. How many HIDTAs--it seems like every year we 
add new HIDTAs. Pretty soon everybody will be high intensity.
    Mr. Drown. If I am not mistaken, I believe there are now 
31, but I can check very quickly.
    Mr. Souder. And how many are on the Southwest Border?
    Mr. Drown. There is one HIDTA on the Southwest Border made 
up of five partnership HIDTAs, if you will. I went through them 
earlier, south Texas, west Texas, New Mexico, Arizona and 
California, but there are now 31 HIDTAs throughout the Nation.
    Mr. Souder. And this counts as one?
    Mr. Drown. It is considered legally to be one HIDTA with 
five partnerships.
    Mr. Souder. And 30 percent, you get $10.7 million which 
means that the other four divide up the other $46 million?
    Mr. Drown. That is correct. And I have a figure if you 
would like it, sir.
    Mr. Souder. Could you give it to me?
    Mr. Drown. Yes sir. Arizona receives $11 million. CBAG, 
$10,407,000. New Mexico, $7,558,000.
    Mr. Souder. What was that one again?
    Mr. Drown. $7,558,000; south Texas, $8 million; west Texas, 
$7.5 million. And the Southwest Border administration, $1.4 
million.
    Mr. Souder. And you are saying that 58 percent of the 
seizures are coming from your area?
    Mr. Drown. I think the figure I gave was----
    Mr. Logan. I can testify to that, Congressman. It was 58 
percent of all detected drug smuggling events through ports of 
entry from Brownsville to California are in California.
    Mr. Souder. And that 58 percent, that is not necessarily 
volume, that is events?
    Mr. Logan. That is correct. I have got figures and can 
provide that to the committee. It represents by volume in each 
of the drug categories, meth, cocaine, heroin and marijuana.
    Mr. Souder. What is coming through California? Do you have 
more events of less volume?
    Mr. Logan. We have actually more events of less volume 
although it is the shotgun effect in all the border areas and 
they do not want to repeat the Sylmar case of where there was 
20 tons of cocaine in one warehouse. The smugglers are using 
shotgun techniques and also in heroin, cocaine and 
methamphetamine, that is smaller amounts, concealed in more 
vehicles.
    Mr. Souder. I am trying to work off this 58 percent figure. 
Is that roughly what the volume is too in addition to the 
number of events?
    Mr. Logan. Well, for example. In methamphetamine, 
California was responsible for seizing 984 pounds; Texas, 131; 
Arizona, 50 and we break it down by drug amount and----
    Mr. Souder. What? May I ask the question?
    Mr. Logan. Sure.
    Mr. Souder. We have heard from the Sheriff in Eagle Pass 
where clearly coming in he is overwhelmed. He had two or three 
people there and we put more resources in because they have a 
different type of border. They do not have necessarily as much 
historic resources there, but why is there this 
disproportionate funding in the sense of California getting, in 
effect, less than 25 percent of the funding but having 58 
percent of that?
    Mr. Logan. I do not know the answer to that. I can cite 
that Eagle Pass was responsible, their port of entry now for 65 
drug seizures last year. Now they have got a different border. 
Their border patrol--and I am not familiar with that sector. My 
assumption is that the border there may be more permeable 
outside the port of entry than it is inside the port of entry.
    Mr. Souder. Yes, yes. I mean it is just all open.
    Mr. Logan. Yes.
    Mr. Souder. So it may cost a little bit more to try to stop 
even if it is a lesser amount of drugs?
    Mr. Logan. We are the drug magnet. L.A., San Diego, as the 
committee acknowledged, this is the largest land border in the 
world and the haystack is enormous.
    Mr. Souder. Sheriff Drown, I take it that these statistics 
based on what was in your written testimony are combined for 
all the affiliated agencies?
    Mr. Drown. That would be correct. All the affiliated 
agencies participating.
    Mr. Souder. I am just kind of curious. How do you avoid 
double counting?
    Mr. Drown. Frankly, it is something we struggle with all 
the time. I mean it really is. I think that we constantly are 
checking and double checking to insure that we do not double 
count, but I would not appear before you and tell you that 
there is not some double counting that takes place and I would 
also not tell you that we get and record everything that is 
seized in the region. We are just now working on a program to 
insure that when seizures are made locally by local law 
enforcement officers that they get counted into these totals as 
well because frequently they are not.
    Primarily, we guard against double counting by direct 
supervision and management systems to insure that the people 
know that we count only once. I think if there are mistakes 
being made in double counting they are mistakes of--they are 
errors, they are not intentional errors. No one is 
intentionally double counting.
    Mr. Souder. I was not alleging that. I was just trying to 
sort out because when you have joint task forces and you see 
press releases of people claiming the different things, how do 
you sort that?
    Mr. Logan. It is very easy. I mean you have a seizure in 
the back country. Perhaps it is made by a Border Patrol agent 
and for whatever reason it gets turned over to the local Deputy 
Sheriff or resident Deputy Sheriff and each one of them takes 
it as a seizure and reports it as a seizure. That should not 
happen and supervision should be there to ensure that it does 
not happen and I am confident it does not happen on a wholesale 
basis, but I cannot tell you that it does not happen on 
occasion for sure.
    Mr. Souder. In the Camp Pendleton area, clearly there is a 
lot of fairly wild area there, just as a lay observer. You also 
see signs about illegals moving through there and potential 
drug. Has that been with the Coast Guard or any of the others 
and more open areas and is the military doing anything to try 
to address that question? It would seem like a logical place 
for marine traffic.
    Mr. Logan. We have seen, actually, we have seen people try 
to circumvent the Border Patrol checkpoint by using, obtaining 
access to Camp Pendleton through the back roads and then 
getting north to the checkpoint and then proceeding on. 
Unfortunately, we have actually arrested some members of the 
U.S. Marine Corps community involved in drug smuggling. NCIS, 
Naval Criminal Investigative Service works very closely with 
us. They are of course--I do not think--the Marines are 
aggressive in going after misconduct among their own, like any 
law enforcement agency would as well. And it is an attractive 
alternative because--it is a huge base.
    Mr. Souder. Anything on the Marine side? I do not know the 
terrain enough to know. Is that a place where----
    Mr. Logan. They will just continue on up the coast line and 
keep to the coast, basic 101 Navigation, keep the coastline on 
your right and proceed up to the southern Orange County area, 
Dana Point. First harbors of opportunity. Also, they can off-
load it at the beach, very easily. And military members that 
are trained in the operation of small craft are formidable 
foes.
    Mr. Souder. I would like to ask one other question which is 
there has been an obviously fair amount of publicity with the 
DEA case recently that ripples a lot through this area on use 
of informants.
    Do you find that many informants are clean? In other words, 
part of the problem in the DEA was that the person had been 
arrested before and clearly had a number of problems. Do each 
of you presumably have funds for informants or is that mostly 
through DEA? I had trouble understanding the shock that was 
coming through the media that the informants had criminal 
records in the past.
    Mr. Logan. We certainly maintain sources of information and 
I think the Undersheriff can speak for his agency, but 
certainly are the people that are sources of information 
potential criminals themselves? Yes, the answer is yes. 
Oftentimes, cooperators are people we have apprehended and then 
decide to cooperate with Federal law enforcement authorities. 
Have they gone bad on us? Yes. I mean it is risk management. In 
order to get to the people that we are targeting and have we 
had problems with informants? Yes. And we continue to exercise 
due diligence in trying to maintain that we have the proper 
control of them, the proper oversight and with all that, there 
are still occasions where they go bad.
    Mr. Drown. I agree completely. There is probably nothing 
more treacherous than managing informants. Our particular 
agency, we have very strict guidelines and policies regarding 
informant registration and the informant package that has to be 
put together, the background investigation that has to be done. 
Informants sign waivers relative to their knowledge that they 
are not to be committing criminal activities and so forth and 
so on and it is very closely monitored. But it would be very 
unrealistic to assume that we would be working informants who 
had not at some point in time in their life been involved in 
some degree of criminal activity.
    Capt. Allen. The Coast Guard allocated a limited amount of 
money to pay confidential informants. We do tap in, definitely, 
to DEA and Customs information and intelligence.
    Mr. Souder. And would you say that a big percentage given 
the fact that you have been talking about the needle in the 
haystack are based on informants' information, could you 
function without it?
    Mr. Logan. No. Well, we have been successful without 
Humint. We are more successful with it. And because of our 
limited resources whatever agency you are with it allows us to 
put the resources on the pointy end of the sword where we need 
them and at a given date, place and time in a very large 
geographical area. So we rely on that.
    Capt. Allen. Of the Coast Guard's large cocaine busts this 
year, almost all of them were driven by intelligence largely 
from confidential informants, so it definitely helps us out. We 
have to have that information.
    Mr. Mica. Thank you. I would like to recognize Mr. Bilbray 
at this time.
    Mr. Bilbray. OK, we are all family here. We are the bad 
guys with the Federal Government, or at least we are working 
with them close enough so we can get blamed. Issue of small 
parcels of drugs being intercepted at the border. The issue of 
Mexican nationals who are apprehended with small quantities of 
drugs. Are we still releasing them, confiscating their 
documents and releasing them back into Mexico?
    Mr. Logan. The short answer is yes, and may I provide an 
explanation.
    Mr. Bilbray. You better.
    Mr. Logan. First of all, let me say this. It is the desire 
of every Customs Inspector, every Customs Special Agent and 
probably every Prosecutor that we have a fact pattern on each 
drug smuggling event that would allow us to prosecute those 
cases.
    Over the past 4 or 5 years there has been a program called 
INS Referral Program, that is where we encounter a Mexican 
citizen who we have no prior information, but what I mean by 
that there is no--the name of the person is not in any criminal 
indices, that is, he is not of interest to Customs, to FBI, to 
DEA, to the San Diego P.D., the Sheriff's Office, that is, they 
are an unknown. That the fact pattern is such where the 
concealment methods, the statements made by the traveler or the 
driver are consistent with an innocent victim. Now obviously, 
we have been duped. We want to prosecute every case. This year 
so far I think we have had 56 deferrals, that is down--we had 
237 last year; 302 the year before.
    Now also contrary to belief, these people are arrested.
    Mr. Bilbray. Fifty-six so far this year?
    Mr. Logan. This fiscal year 2000, through I believe around 
the first of March. These people are arrested. They are 
deferred back to Immigration for deportation to Mexico. They 
are advised that if they come back, they are not only 
prosecuted for the first event, but the secondary event. I do 
not have a figure on the recidivism or the numbers that return.
    We also have a large number of cases and as the 
Undersheriff mentioned and as the city councilman represented, 
the DA has taken about 2,000 of our cases which was--the 
original agreement thought that there may be 100. The 
requirements for prosecution in the San Diego District 
Attorney's Office is that there be a nexus to San Diego. 
Obviously, if they are Los Angeles-based----
    Mr. Bilbray. Do we reimburse them for those prosecutions?
    Mr. Logan. I think----
    Mr. Drown. I have money that goes to support the cross 
designation. It was a program that I mentioned earlier.
    Mr. Bilbray. Do they get totally reimbursed for the 
incarceration?
    Mr. Drown. I am sure they do not get totally reimbursed.
    Mr. Bilbray. OK, go ahead.
    Mr. Logan. What happens is there is very little expended. 
There is usually no court time because the people wind up 
pleading guilty and they are essentially processed through 
South Bay which is a large number and they wind up doing, for 
example, in marijuana, which is the usual scenario here, let us 
say it was 50 pounds, 50 days in jail.
    Mr. Bilbray. OK.
    Mr. Logan. If they come back, the second time, of course, 
we take them federally and it is a matter of resource 
management, but not the decision. The decision on the deferral 
program is not resource management. It is a decision of the 
fact pattern that will drive us to that conclusion that we 
cannot get a conviction, that the evidence is not there, that 
they are not of interest or of prior interest to any law 
enforcement agency and there is certainly a strong likelihood 
if we took the case forward that we would lose it in court and 
therefore, needlessly expend U.S. taxpayers' resources.
    Now are they all exactly cookie cutter, the same? No.
    Are there errors of judgment made, perhaps by the 
defendants or perhaps the suspects where we think we might get 
a prosecution? Those issues go to prosecutorial merit and best 
addressed by the U.S. Attorney's Office and the DA.
    Mr. Bilbray. Mr. Logan, the previous Federal attorney 
clarified at least in the past and at that time that there were 
people that were apprehended who were in possession of drugs, 
either for whatever purposes, and based on their nationality 
being Mexico was not prosecuted. Now he indicated to me that if 
he had been a U.S. citizen in possession of a small quantity of 
drugs, that U.S. citizen would be prosecuted.
    Now do we still have that situation existing along the 
border?
    Mr. Logan. I would say they would be prosecuted if the 
facts and the evidence dictated it. There are still cases where 
there are U.S. citizens caught in possession of narcotics 
concealed in a way and a story presented consistent with an 
unwitting juvenile being asked by an uncle or an adult to 
transport a car across the border for one simple example where 
they are not prosecuted because we believe they were not the 
guilty party.
    If we did believe they were guilty and we had the evidence, 
of course, we would take it forward. So there is still 
prosecutorial decision made on a U.S. citizen and it may be for 
prosecution and it may be--it would not be deferral because we 
would not be able to prosecute. We would essential, what we 
call kick them loose.
    Mr. Bilbray. Well, I am just trying to get back to this 
whole issue of what happened to the policy that specifically 
had a certain amount of pounds or kilos of drugs as being a 
threshold for certain prosecution?
    Mr. Logan. Well, there is no particular threshold.
    Mr. Bilbray. Was there at one time?
    Mr. Logan. Is John here? John may be able to answer this 
because he has dealt with it as well. He is a prosecuting 
attorney from the United States----
    Mr. Bilbray. Why do not you confer with him, and I will 
shift over. I would like to get this thing straightened out.
    Mr. Logan. Right.
    Mr. Bilbray. I think it is a very serious issue.
    Captain, we have had individuals along this coastline that 
keep finding empty boats parked on the beach. Now you are 
saying that the resources are just drawn to the point to where 
you cannot intercept those?
    Capt. Allen. Some do slip through. There is no doubt. And 
we find them ourselves.
    Mr. Bilbray. Captain, they do not just slip through. You 
have got life guards arresting people in Mission Bay. That is 
pretty embarrassing for those of us in the Federal Government, 
right?
    Capt. Allen. Sir, sometimes it is hard to tell the bad guys 
from the good guys, too. There are these small boats. They all 
look very similar. We do not always know whether they have 
aliens----
    Mr. Bilbray. Californians do not wear enough hats, I know.
    Capt. Allen. That is the truth though, sir. It is hard to 
tell. With the limited resources we have, we investigate 
whichever vessels we think are dirty, but we do not always know 
who they are and they come through.
    Mr. Bilbray. I just hope my colleague hears the fact that 
while we are sending resources all over the world to defend 
other neighborhoods, that you do not have the resources here to 
defend our neighborhoods. This is the largest military complex 
in the world, San Diego County, more military installations 
here than anywhere else in the world, and the Captain who is in 
charge of defending these neighborhoods from drugs does not 
have the resources to stop the drug ladened landing crafts from 
hitting our beaches.
    Now in the positive side of it your cooperation with--is it 
Guatemala, Honduras about doing interception, deep 
interception? You want to explain that relationship of 
flagging, reflagging, having an officer on that?
    Capt. Allen. I think you are referring to the military, 
being the largest military industrial area in the United States 
and the world, I think, but the Department of Defense forces 
cannot enforce laws and treaties. Only the Coast Guard can and 
we go on board their ships to be the law enforcement officials. 
So we have our law enforcement detachment over here at the 
Pacific Area Taclet over on MCRD. They go on board U.S. Navy 
ships and the ships of friendly nations and enforce our laws 
and treaties. So that is how that works and about a third of 
our cocaine busts last year were made by Taclet personnel.
    Mr. Bilbray. What about the cutter that we are posting 
south of Mexico and in cooperation with a Central American 
country there and being able to do interdiction to the 
coastline?
    Capt. Allen. To the coastline? My 110-foot patrol boats 
here have operated down off the Gulf of Tehuan tepc off of 
Guatemala and we had set up with them where we could go in for 
refueling, logistics, and that sort of thing with Guatemala. 
That was last year.
    Since then we haven't because of funding and other resource 
allocation uses we spent 10,000 man hours on the Alaska Air 
crash. It is liken the balloon: you squish it here, it gets 
bigger over here. We are not going to send them down this year 
because we do not have the funds and the time to do it, or the 
maritime air support to make it effective, but we did work with 
Guatemala.
    Mr. Bilbray. When you patrol of the Mexican coast, how far 
out?
    Capt. Allen. Twelve miles.
    Mr. Bilbray. Twelve miles. You cannot come in any closer 
than that because it violates the sovereignty of Mexico?
    Capt. Allen. Yes, sir.
    Mr. Bilbray. And the drug smugglers basically stay within 
those 12 miles and run up the coast?
    Capt. Allen. That would be one method to do it, yes, sir.
    Mr. Bilbray. What if we had the ability to have Mexican 
authorities----
     Logan. As previously discussed, the limit, or the--if it 
is an artificial one, 125 pounds below which a Mexican national 
would be deferred and there again, if it is not a readily 
approval case. It could be below 125 pounds and we have got a 
provable case, we will take it one.
    Mr. Souder. You did not mean 125 pounds?
    Mr. Logan. Of marijuana, right.
    Mr. Bilbray. This is why I wanted to hear. The challenge is 
this. You have got 125 pounds coming across. The drug cartels 
know the 125 pounds will set a threshold for them to shoot for, 
and I can imagine being the import agent for the cartels saying 
do not worry, Joe, we only have 115 pounds here. You know what 
the stupid Americans on the other side are doing. Let us run it 
under the bar.
    Mr. Logan. They clearly brief their load drivers and we 
have found that to be true. Our challenge is to develop an 
evidentiary case where we can prosecute them too. This is not 
an automatic deferral of 125 pounds, like I say, these have to 
be folks that there is no prior indication. We have not tracked 
them to an organization. We do not think there is a likelihood 
that will get jail time or conviction and so we are making a 
judgment and the percentages we believe are consistent with 
declination rates in the DA's office or the U.S. attorney's 
office. So as much as we would like to prosecute everyone, if 
we feel there is over 125 pounds, the larger volume, the more 
prima facie case we think we have in terms of that person was 
knowledge, that it is harder to conceal in the vehicle and 
there have been some very innovative ways where they will and 
all four tires and unbelievable concealment shops. And they can 
actually operate the vehicles at high speed with those cars or 
bumper loads. And the higher the poundage, the more success we 
have in proving knowledge. Those are prosecutorial decisions 
and we share the frustration of every inspector and agent where 
we cannot get a prosecution and we would love to have 100 
percent to do that.
    Mr. Bilbray. Mr. Logan, I have supervised law enforcement 
agencies since 1976. I know resources are still and always have 
been a major determining factor in deciding when to prosecute 
and when not.
    I just want to make sure my colleague wakes up to the fact, 
and then gets the message to Washington that certainly one of 
the determining factors with prosecuting somebody with 125 or 
less is do we have the money to prosecute them? Do we have the 
jails? Do we have the court space? And as we point at Mexico 
and say they are not doing enough, I hope those of us in 
Washington look at the facts that there are lines being drawn 
because Washington is not giving the people locally the 
resources to prosecute every single person who is caught 
smuggling drugs. That is the message that I wanted to get out 
is that there, which is a classic example of something we ought 
to be demanding and expecting, that everybody caught no matter 
what their nationality, because there is this issue of who is a 
United States citizen as opposed to a Mexican national. There 
might be a different determination, that every nationality 
should be prosecuted for smuggling drugs and I think that is 
all I wanted clarified.
    Clarification on the opportunities and challenges for 
operations along the coast.
    Capt. Allen. Yes sir. We had an operation called Mayan 
Jaguar, I think what you are referring to.
    Mr. Bilbray. Yes.
    Capt. Allen. We went down, the same one I talked about, 
went to Guatemala. And we had a Guatemalan ship/rider on board. 
We had an agreement with them that so then we could go into 
their waters with the shiprider aboard and prosecute cases in 
their waters as well as international waters. So that is 
something we have done throughout the Coast Guard with 
different countries. They do it in an operation in the Bahamas, 
on the East Coast. One problem I have with that is that it 
takes about one-third of my annual operating hours for my 110 
to go all the way down to Guatemala. But the concept works. 
However, this sort of coordination is done above my level as a 
Department of State sort of thing. So it does have promise.
    Mr. Bilbray. Captain, I appreciate you being briefed on 
this, whatever, and I understand the challenge with it.
    I saw an opportunity there, the fact that there was an 
innovative approach that secured the national sovereignty of 
Guatemala by having the ship basically under the flag and 
command of Guatemala as it enters their waters.
    Capt. Allen. Right.
    Mr. Bilbray. But still making the U.S. resources available 
to work that out. There is a challenge for a lot of us. 
Frankly, when I meet with the representatives of Mexico's 
delegation in Veracruz this year, I will basically be 
approaching them about the issue, Mexico trying to cooperate in 
the same kind of relationship. And national sovereignty is a 
very, very delicate issue there for good reason historically. 
But the fact is that between Cedral's Islands and the 
Santentine or Ensenada is the most deserted portion of Mexico 
and the coastline. If we can develop a protocol to allow the 
same type of arrangement to occur between those two areas, 
about 300 miles, this close to San Diego, you will be able to 
use your resources more effectively. We will be able to be able 
to intercept more effectively and Mexico will be able to help 
curtail the flood of drugs that are killing their law 
enforcement officers in Tijuana.
    So I guess that is my challenge as I point fingers at you.
    Capt. Allen. If you can make progress there, sir, as an 
operational commander I would definitely point out that that 
would be helpful to me. It is obviously above my level, but my 
110 were to go into Mexican waters with them on board as 
shipriders it would be beneficial.
    Mr. Bilbray. I want to say something in public and I would 
like you guys to respond to it because I think it is a good 
time to do it. Has anybody investigated the use of the oil 
transports to Rosarita refineries, Rosarita power plant? Do we 
have any hot data on the use of those tankers for transport of 
contraband?
    Mr. Logan. No from me.
    Mr. Bilbray. Can you talk about it in public? Well, let me 
just say frankly as someone who grew up in this area, you have 
huge freighters that are traveling from the interior up to and 
within a few miles of the border, unloading and then turning 
back around. It just seems like a huge opportunity for 
mischief. And there is a problem we have in Mexico, and there 
is another issue that some of us have to talk about. Those 
ships are basically autonomous and to themselves to the 
skipper. Federal officials have very limited jurisdiction in 
Mexico over that shipping. But I think that we need to be aware 
of what is the obvious.
    You have a comment?
    Capt. Allen. I would just point out that those ships are 
controlled completely by PEMEX and delivered 100 percent to 
PEMEX so it is sort of a government controlled entity, so 
therefore there may be some implication there, I do not know.
    Mr. Bilbray. Captain, the Ambassador to the United States 
from Mexico is the ex-Secretary of Energy. And the Secretary of 
Energy did not have control. That is one big problem we had. He 
did not have control of those ships. So again, these are 
challenges we need to work on.
    I would open up this can of worms basically to challenge 
all of us to try to think about how we can do better as part of 
the Federal strategy.
    Thank you very much, Mr. Chairman.
    Mr. Souder [presiding]. I would suggest to my colleague 
that one of the things I might do is attach these in the 
certification, possible things to look at the next year. We 
have done that. We have had a terrible time with the marine 
part in Mexico. We were down there in January. We were hearing 
in terms of progress, meaning instead of two arrests, they made 
six. This type of thing. But they do seem to be committed to 
trying to do some of that. They do not like us to be this heavy 
big brother type. At the same time, there are give and takes in 
all of our relationships whether it be immigration, trade or 
otherwise.
    I had two followup questions I wanted to ask, one with Mr. 
Logan and whoever else might know this. In El Salvador last 
year, Guatemala this year, one thing when we deport people 
because of them being convicted in the United States or release 
them from prison if they are illegals who have been arrested 
and go into our prison systems, do you know whether we notify 
those governments that they are coming in?
    Mr. Logan. I know from an immigration standpoint and I am 
assuming that when they deliver them back that the Mexican 
authorities are there.
    Mr. Souder. One of the things in the record, and you might 
watch this, that both countries told us in separate years that 
we were deporting them and we did not know where they were and 
they are getting dumped in in huge numbers and that in 
Guatemala and El Salvador, particularly vis-a-vis probably more 
L.A. than San Diego and in Washington, DC, that now we have 
inadvertently developed drug trafficking networks and families 
that we did not have previously. In other words, when they 
first came in as illegals, they were not drug abusers. They 
came to the United States, became drug abusers and we kicked 
them out. Now they are realizing that they can sell because 
they were doing the street. They were the kind of carriers for 
the people we had deported.
    Mr. Drown. Franchised the problem, basically.
    Mr. Souder. One last thing. I am perplexed a little on this 
125 pounds. That I understand those are cases you thought you 
would not win, is that correct?
    Mr. Logan. Yes.
    Mr. Souder. And in that how many of those are over 50 
pounds. Are there very many that we are talking about here?
    Mr. Logan. Usually in the smaller amounts versus the 
higher, up to 125 pounds and if the fact pattern is there and 
it is a Mexican citizen and it is less than 125 pounds and if 
they are linked to something that we are interested in, we will 
prosecute them.
    Mr. Souder. You had another ``if they are linked to 
something.'' What if they are not linked to something?
    Mr. Logan. Well, first of all, it has got to be a provable 
case.
    Mr. Souder. OK, if it is provable, and it is under 125----
    Mr. Logan. They are going. They are going to be prosecuted.
    Mr. Souder. Even if they are not linked to anything else?
    Mr. Logan. True, true, yes.
    Mr. Souder. It is still a little disturbing because in most 
parts of the country 125 pounds, particularly by the time it 
gets watered down is possibly just in the history of that 
country.
    Mr. Logan. Absolutely.
    Mr. Souder. And it is a little disconcerting. Well, thank 
you very much for your testimony. As the chairman said earlier, 
we are going to leave the record open for 2 weeks. If there are 
other pieces of information you want to insert and with that I 
thank everyone who has been in attendance as well as the 
participants of the hearing and the Subcommittee on Criminal 
Justice stands adjourned.
    [Whereupon, at 1:24 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T6899.098

[GRAPHIC] [TIFF OMITTED] T6899.099

[GRAPHIC] [TIFF OMITTED] T6899.100

[GRAPHIC] [TIFF OMITTED] T6899.101

[GRAPHIC] [TIFF OMITTED] T6899.102

[GRAPHIC] [TIFF OMITTED] T6899.103

[GRAPHIC] [TIFF OMITTED] T6899.104

[GRAPHIC] [TIFF OMITTED] T6899.105

[GRAPHIC] [TIFF OMITTED] T6899.106

[GRAPHIC] [TIFF OMITTED] T6899.107

[GRAPHIC] [TIFF OMITTED] T6899.108

[GRAPHIC] [TIFF OMITTED] T6899.109

[GRAPHIC] [TIFF OMITTED] T6899.110

[GRAPHIC] [TIFF OMITTED] T6899.111

[GRAPHIC] [TIFF OMITTED] T6899.112

[GRAPHIC] [TIFF OMITTED] T6899.113

[GRAPHIC] [TIFF OMITTED] T6899.114

[GRAPHIC] [TIFF OMITTED] T6899.115

[GRAPHIC] [TIFF OMITTED] T6899.116

[GRAPHIC] [TIFF OMITTED] T6899.117

[GRAPHIC] [TIFF OMITTED] T6899.118


</pre></body></html>
